<html>
<title> - THE NEW FEDERAL FARM BILL FIELD HEARING FROM WORTHINGTON, MINNESOTA</title>
<body><pre>[Senate Hearing 107-864]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-864
 
  THE NEW FEDERAL FARM BILL FIELD HEARING FROM WORTHINGTON, MINNESOTA
=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                             AUGUST 4, 2001

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov








                           U.S. GOVERNMENT PRINTING OFFICE
85-323                          WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            JESSE HELMS, North Carolina
THOMAS A. DASCHLE, South Dakota      THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
BLANCHE L. LINCOLN, Arkansas         PAT ROBERTS, Kansas
ZELL MILLER, Georgia                 PETER G. FITZGERALD, Illinois
DEBBIE A. STABENOW, Michigan         CRAIG THOMAS, Wyoming
BEN NELSON, Nebraska                 WAYNE ALLARD, Colorado
MARK DAYTON, Minnesota               TIM HUTCHINSON, Arkansas
PAUL DAVID WELLSTONE, Minnesota      MICHEAL D. CRAPO, Idaho

              Mark Halverson, Staff Director/Chief Counsel

            David L. Johnson, Chief Counsel for the Minority

                      Robert E. Sturm, Chief Clerk

              Keith Luse, Staff Director for the Minority

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

The New Federal Farm Bill Field Hearing from Worthington, 
  Minnesota......................................................    01

                              ----------                              

                        Saturday, August 4, 2001
                    STATEMENTS PRESENTED BY SENATORS

Dayton, Hon. Mark a U.S. Senator from Minnesota..................    01
Kennedy, Hon. Mark, a Representative in Congress from Minnesota..    02
Wellstone, Hon. Paul, a U.S. Senator from Minnesota..............    02
                              ----------                              

                               WITNESSES

Arndt, Bob, President, Minnesota National Farmers Organization...    04
Bederman, Bruce, Grafton, Iowa...................................    35
Botten, Dennis, President-Elect, Minnesota State Cattlemen's 
  Association, St. James, Minnesota..............................    16
Christopherson, Al, President, Minnesota Farm Bureau.............    05
Dieter, Robert A., Brewster, Minnesota...........................    30
Elness, Kelvin, Windom, Minnesota................................    34
Everett, Les, University of Minnesota Extension and Water 
  Resources Center, St. Paul, Minnesota..........................    22
Frederickson, Dave, President, Minnesota National Farmers 
  Organization...................................................    03
Froemke, Mark, President, Northern Valley Labor Council, AFL-CIO, 
  Grand Forks, North Dakota......................................    27
Garver, Paul, Hendricks, Minnesota...............................    22
Goedtke, Rick, Fulda, Minnesota..................................    36
Graff, Jerome, Sanborn, Minnesota................................    28
Green, Larry, Fulda, Minnesota...................................    26
Haberman, Pat A., Brewster, Minnesota............................    28
Hegland, Ed, President, Minnesota Soybean Growers Association....    08
Henning, Timothy A., Lismore, Minnesota..........................    13
Juhl, Dan, Pipestone, Minnesota..................................    29
Kahout, Monica, Land Stewardship Project.........................    10
Kanten, Anne, Hawick, Minnesota..................................    19
Kanten, Kent, Milan, Minnesota...................................    20
Keith, Rick, Omaha, Nebraska.....................................    26
Kibbie, John P., Iowa Senate, Emmetsburg, Iowa...................    35
Kirchner, Bob, Farmer, Brewster, Minnesota.......................    17
Kloucek, Hon. Frank, a Member of the South Dakota House of 
  Representatives, Scotland, South Dakota........................    24
Kolsruf, David, Beaver Creek, Minnesota..........................    32
Kuehl, Aaron, Pheasants Forever, Janesville, Minnesota...........    17
Liepold, Larry, President, Minnesota Soybean Growers Association.    09
Mahlberg, Rolf, Minnesota West community and Technical College, 
  Worhtington, Minnesota.........................................    19
Moritz, Bob Rev., Hadley, Minnesota..............................    37
Naurth, John III, Lakefield, Minnesota...........................    29
Olson, Linden, Worthington, Minnesota............................    21
Olson, Randy, Sunburg, Minnesota.................................    34
Otremba, Hon. Mary Ellen, a Member of the Minnesota House of 
  Representatives, Long Prairie, Minnesota.......................    30
Petersen, Chris C., Vice President, Iowa Farmers Union, Clear 
  Lake, Iowa.....................................................    15
Petersen, Hon. Doug, a Member of the Minnesota House of 
  Representatives, Madison, Minnesota............................    14
Raedeke, Laura, Nisswa, Minnesota................................    18
Romsdahl, Brian, Butterfield, Minnesota..........................    25
Skalbeek, Rodney, Sacred Heart, Minnesota........................    23
Sobocinski, Paul, Land Stewardship Project, Wabasso, Minnesota...    33
Tusa, Loren, President, National Corn Growers Association........    07
Zupp, Richard, President, Minnesota Association of Soil and Water 

  Conservation Districts, Pipestone, Minnesota...................    32
                              ----------                              

                                APPENDIX

Prepared Statements:
    Ardnt, Bob...................................................    53
    Christopherson, Al...........................................    55
    Frederickson, Dave...........................................    42
    Kahout, Monica...............................................    69
    Liepold, Larry...............................................    63
    Mahlberg, Rolf...............................................    72
    Tusa, Loren..................................................    61



  THE NEW FEDERAL FARM BILL FIELD HEARING FROM WORTHINGTON, MINNESOTA

                              ----------                              


                        SATURDAY, AUGUST 4, 2001

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 2:12 p.m., in the 
Fine Arts Building, Minnesota West Community and Technical 
College, 1450 College Way, Worthington, Minnesota, Hon. Mark 
Dayton presiding.
    Present or submitting a statement: Senators Dayton and 
Wellstone.

  STATEMENT OF HON. MARK DAYTON, A U.S. SENATOR FROM MINNESOTA

    Senator Dayton. We have a great audience here, so we are 
going to get quickly to their testimony, and then, we are going 
to keep our questions very limited so that we can make sure 
that we have not only an opportunity to hear from all of you 
but also, through the open mike, give an opportunity for anyone 
to speak his or her mind. We are going to try to move rapidly 
through our panel, asking them to limit their remarks to 3 
minutes apiece and asking anyone at the open mike to limit 
their remarks to 2 minutes apiece, and if we get through 
everybody, then, who wants to say something, we will have an 
opportunity, then, to have a dialog following that.
    That is our format, and I will save any opening remarks. I 
will keep them concise to that point. I was going to say that 
Mark Kennedy, our representative from the Second District, I am 
really delighted that you joined with us. It makes it both 
bicameral and bipartisan. I have learned at least in the Senate 
that these issues related to agriculture are much more 
provincial than partisan. I find in the upper Midwest, we are 
gathered together and pitting ourselves against some of the 
Senators of the same political party from, say, the Northeast 
in terms of the dairy compact and the like.
    I look forward to working with you this year and the years 
ahead on the people we all represent. Maybe you would like to 
make opening remarks, Mark.

 STATEMENT OF HON. MARK KENNEDY, A REPRESENTATIVE IN CONGRESS 
                         FROM MINNESOTA

    Mr. Kennedy. I would just like to echo those remarks and 
thank you for having this hearing; thank you for inviting me, 
and I applaud you on moving forward on this bill.
    For agriculture policy to be successful, we not only have 
to have the House and Senate working together; but we have to 
be bipartisan, just as you said. I am very pleased that on the 
House ag bill that we just passed out that it was introduced by 
not only our chairman, who is the Republican chairman, but the 
ranking Democratic member proposed it together, and it was 
voted by a voice vote, so that both Republicans and Democrats 
supported it.
    We do not have enough of the country that really cares 
about agriculture to really take a chance and be fighting about 
ag policy. We have to be together to keep that very delicate 
balance that we have had for farm support. I look forward to 
these hearings today and to hearing from our panel, and thank 
you for having me.
    Senator Dayton. Now, Senator Wellstone.

STATEMENT OF HON. PAUL WELLSTONE, A U.S. SENATOR FROM MINNESOTA

    Senator Wellstone. Thank you, Mark. Well, first of all, I 
want to thank the panelists, and I want to thank everyone for 
being here on a Saturday afternoon, a pretty hot day at that. I 
love the fact that we are here at just a wonderful educational 
institution. That always means a lot to me as a teacher. I know 
I see sitting down here a lot of great people, but one of the 
individuals who has had the greatest impact on me in my adult 
life when it comes to family farm part of agriculture, which is 
where my passion lies, is Anne Kanten. Unless--I do not have my 
glasses on, but Anne is sitting right there, and I am just so 
pleased you are here. Thank you, Anne.
    [Applause.]
    Senator Wellstone. Kent as well, but I want to just say to 
both Marks that I appreciate your comments. I have so much to 
say that I do not want to start, because we want to move it 
along and have a lot of people speaking. I do want to introduce 
Sheila, who is with me, my wife, Sheila, and the only thing I 
would say is maybe I am being too dramatic about it, and I will 
not fill in the specifics, or I will go over 2 minutes. I feel 
a great sense of urgency about this. This is an extremely 
important meeting. I do not think we have a lot of time to get 
it right. I do not think we can afford to have another farm 
bill that does not work, that does not deal with the price 
crisis.
    [Laughter.]
    Senator Wellstone. I really do not. We are going to have 
the strongest focus on conservation and land stewardship that 
we have ever had, and I want to bring in all the faith 
community and people in the metro area, seeing the connection 
between whether we have a family farm structure of agriculture, 
and they have an affordable and safe supply of food. I 
definitely want to have an energy section, and everybody here 
knows what I mean by that. We have real potential with 
renewable energy policy and clean fuels, and I am interested in 
the whole rural economic development piece, and Mark, in the 
last 20 seconds, the one thing I am most interested in of all 
is I want, in the worst possible way, as a 5 foot 5 inches 
Senator to have antitrust action and take on these monopolies 
that have way too much control and power in this industry.
    [Applause.]
    Senator Dayton. As I said, we are very fortunate to have a 
really top-notch panel here, and I want to thank each and every 
one of you for taking time from your Saturday to be here, the 
leaders of our major farm organizations, and we will just start 
here closest to me, Dave Frederickson of the Minnesota Farmers 
Union, and then, we will work our way just sequentially across 
the table.
    Welcome and thank you.

 STATEMENT OF DAVE FREDERICKSON, PRESIDENT, MINNESOTA FARMERS 
                             UNION

    Mr. Frederickson. Thank you very much, Senator Dayton, and 
welcome to Worthington, Senator Dayton, Senator Wellstone, 
Congressman Kennedy; good to see all of you.
    I am Dave Frederickson, president of the Minnesota Farmers 
Union, and on behalf of our family farmers, it is certainly an 
honor to be here and participate in this hearing. Because I 
have already given the committee detailed written testimony 
with suggestions for a new farm bill, and for those of you who 
are interested, there are about 50 copies laying down on the 
front, let me just take a little time to share some 
philosophical or key points, and let me add that I will do this 
in less than 2 minutes.
    The guiding principle for the Farmers Union, for us, is 
that farmers want and need and frankly deserve a fair price 
from the marketplace, not from government. The current Farm 
bill and the one that the House Ag Committee approved last week 
fails on that basis. They make farmers more dependent on 
government payments and, frankly, not less. In contrast, here 
are about four ideas that the Farmers Union believes would make 
a better farm bill: establish a better marketing loan structure 
or program that creates appropriate floor safety net; the loan 
should be based on the full economic cost of production. The 
program, certainly, should be countercyclical.
    No. 2, create a limited and dedicated reserve to ensure our 
ability to meet new demands, such as a renewable energy 
production; an international school lunch program. These 
reserves should be released only for specific purposes such as 
during times of short supply. Many of us in this room have 
lived under the old farm program, the new farm program, and 
many of us have built bins, paid for bins and continue to hold 
grain to take advantage of a higher market opportunity. 
Frankly, that is not available today, and it ought to be.
    Three, for dairy producers, maintain or increase the 
current price support structure and supplement it with a 
countercyclical target price mechanism based on the cost of 
milk production. No. 4, target farm programs to those who need 
it. Big agribusiness corporations do not need Congressional 
help; small family farms do.
    [Applause.]
    Mr. Frederickson. There is already too much concentration 
in agriculture; do not make it worse.
    No. 5, and this is an add-on, continue to support the 
biodiesel effort. All farm organizations in Minnesota stood 
shoulder-to-shoulder on that issue in the Minnesota 
Legislature, and we lost. That ought to make producers nervous.
    Some of the other issues that are important to the Farmers 
Union such as stopping unfair trade practices, crop insurance 
voluntary cost containment through flex-fallow programs are 
covered in my written testimony. Thank you for the opportunity 
to appear before the committee today and to discuss these 
important issues. We look forward to working with all of you in 
the near future.
    [The prepared statement of Mr. Frederickson can be found in 
the appendix on page 42.]
    Senator Dayton. Thank you, Dave.
    Next is Bob Arndt with the National Farmers Organization, 
Minnesota NFO. Welcome, Bob.

 STATEMENT OF BOB ARNDT, PRESIDENT, MINNESOTA NATIONAL FARMERS 
                          ORGANIZATION

    Mr. Arndt. Thank you, Senator.
    Senator Wellstone, Senator Dayton, Congressman Kennedy, I 
am Bob Arndt. I am President of the Minnesota National Farmers 
Organization. I farm near Echo, Minnesota. I certainly 
appreciate the opportunity to testify on behalf of our fellow 
NFO farmer members.
    America's production agriculture is an economic powerhouse. 
It affects the economic wellbeing of not only 2 million family 
farms but also the tens of millions of families that live 
throughout the rural communities of what we call America. I 
submit to you that whoever provides the risk capital to produce 
the next crop will control the destiny of rural America and 
America's food production industry for the next year.
    That risk capital that we use each year will either come 
from the farmer owner-operator's assets, or it will come from 
multinational absentee investors who will fill the vacuum that 
low farm prices and a loss of income leaves. The next Farm bill 
will largely determine who will control America's food 
production industry in the next decade.
    For too long, we have listened to the persuasion of 
multinational grain merchants and international trade entities, 
and we have ignored the fundamentals of the benefits of earned 
income and the actual statistics of food production versus food 
use, both domestic and worldwide. I farmed for 40 years, 
producing corn and soybeans, and I have noticed that we have 
only a 56-day carryover of both corn and soybeans, and we did 
not throw any away after 40 years.
    We used it all, but at the same time, our parity price has 
gone from 71 percent of parity in 1959 to 30 percent of parity 
this past year. The following table shows a corn comparison of 
10 years ago, and note the stock use ratio versus the price. I 
have about 50 copies of it here. I turned my statement in to 
you, so you can see the table. I want to point out that on this 
table, 10 years ago, in 1989, we exported about 2 billion 
bushels of corn. In the year 2000, we exported 2 billion 
bushels of corn. It did not increase, no matter what the price 
was.
    Our ending stocks 10 years ago were 1.9 billion. The ending 
stocks in the year 2000, 1.7 billion. We have not increased our 
carryover. The average farm price in the year 1989 was $2.64 a 
bushel for corn. In 1999, 10 years later, it is $1.80 a bushel. 
It is also worthy to note that the U.S. has had four back-to-
back bumper crops, and still, the carryover is barely 
maintained. The U.S. has had no strategic food reserve policy 
in that time, even as our production struggles to keep upThe 
National Farmers Organization proposes establishing a food 
security system, which means to isolate a 6-month supply of 
corn, soybeans and wheat from the market until trigger levels 
are reached. Suggested trigger level prices would be $3.25 for 
corn, $6.50 for soybeans and $4 a bushel for wheat, national 
averages. The grain placed in the field in the food security 
system would be grain that had been under CCC loan for 9 months 
and kept on the farm. Producers would be compensated 25 cents a 
bushel annually for storage and quality assurance. Grain could 
be rotated annually.
    The food security service would secure our food supply. We 
have assurance of that now. It would cause the markets to 
relate positively to the isolation from the market of the 6-
month supply. It would save taxpayers billions of dollars and 
restore earned income to production agriculture, something you 
are all looking for. If we fill the reserve during the duration 
of the Farm bill, a flexible fallow program would take effect 
and allow farmers to reduce the planting of their normal acres 
in return for higher loan rates.
    Senators I ask that you give serious consideration to this 
approach. It would save the taxpayer billions of dollars. It 
would bring earned income into agriculture that we are looking 
for, and it would give the American people a secure food 
reserve system in the future. America must answer the question: 
do we want American farmers producing American food, or do we 
want multinational corporate capital controlling the production 
of food on American soil for their own corporate profit?
    Thank you.
    [The prepared statement of Mr. Arndt can be found in the 
appendix on page 53.]
    Senator Dayton. Thank you, Bob.
    Al, I am glad to welcome you here, Al Christopherson, the 
president of the Minnesota Farm Bureau. We will ask you to keep 
it to about 3 minutes of opening remarks, please, and then, we 
will give everybody a chance to be heard. We are glad to have 
you with us.

   STATEMENT OF AL CHRISTOPHERSON, PRESIDENT, MINNESOTA FARM 
                             BUREAU

    Mr. Christopherson. OK; thank you. I am the late Al 
Christopherson--[Laughter.]--president of the Minnesota Farm 
Bureau.
    Some comments with regard to the Farm bill, the Farm bill 
discussion as it relates to our organization and as we see it. 
We certainly believe that the public's investment in 
agriculture is key to the industry's survival and its ultimate 
success. American agriculture provides food security for this 
nation, economic security by running a positive balance of 
trade and generating off-farm employment and environmental 
security by making use of the best management practices to 
conserve our natural resources.
    Now, in relation to the commodity title of the new Farm 
bill, we support the following concepts: maintaining planting 
flexibility and not including mandatory supply management 
programs; rebalancing the loan rates to be in historical 
alignment with the current 526 soybean loan rate; continuing 
production flexibility contract payments to current contract 
holders and allowing oil seed production to be eligible for the 
same type of payment contract; not including a farmer-owned 
reserve or any federally controlled grain reserve with the 
exception of the existing Capped Emergency Commodity Reserve; 
extending the dairy price support program at $9.90 a hundred; 
allowing producers to lock in published loan deficiency payment 
at any time after a crop is planted, with payment being made 
only after harvest and a yield determination.
    The intent of the new Farm bill should be to design an 
agricultural program that provides a solid agricultural base 
for America. Payment limits and targeting of benefits will 
cause a segmentation of the industry, causing us to be less 
competitive.
    In relation to the trade title, the Farm Bureau believes 
that it is extremely important for the new Farm bill to stay 
within the World Trade Organization amber box commitment, which 
is $19.1 billion. While it may be easy to demagogue the issue 
of global trade commitments as being innately unfair to farmers 
and to forego our prior commitments and appropriate dollars 
over $19 billion, the effect will be a long-term lack of 
credibility in our negotiating position with foreign countries, 
and it will ultimately injure the long-term success of American 
agriculture.
    Turning our backs on global trade and going back to 
protectionist policies will not improve our bottom line, 
neither in the short or the long-term. Whether we like it or 
not, we are still faced with finding a market for over 30 
percent of our product. Global trade should not be seen as a 
hindrance but as an opportunity. I might also add that we have 
a number of trade agreements which are not working all that 
great. However, to fix them does require continued work, 
continued discussion and that type of thing.
    In relation to the conservation title, the Farm Bureau 
supports a reformed equipped program and a compensation 
incentive payment program. Money should be allocated equally 
between livestock and crops. Given the limited amount of funds 
available for conservation available and the need to fund other 
programs, we do not support expansion of the current 
Conservation Reserve Program.
    We believe--the Farm Bureau has a vision of a growing 
industry that depends less on government payments and more on 
returns from the marketplace, but we must implement policies 
that will grow our markets. These investments in research, 
export promotion activities and technologies to derive energy 
from farm-grown commodities help bridge the gap between where 
agriculture is today and where we want it to be in the future.
    I would certainly like to thank you for holding this 
meeting and dealing with the upcoming Farm bill. I look forward 
to working with you on this, and I would be glad to respond to 
any questions at a later point.
    [The prepared statement of Mr. Christopherson can be found 
in the appendix on page 55.]
    Senator Dayton. Thank you very much, Al.
    Next, we have Mr. Loren Tusa, who is the president of the 
Minnesota Corn Growers Association. Loren, welcome, and I guess 
we have a traveling microphone here.

  STATEMENT OF LOREN TUSA, PRESIDENT, MINNESOTA CORN GROWERS 
                          ASSOCIATION

    Mr. Tusa. That is just fine.
    Thank you for coming and holding this hearing here in rural 
Minnesota. I live just down the road in Jackson, so I am only 
about 40 miles away, so it is not a whole killed afternoon for 
me.
    Nearly every commodity group has suggested some 
countercyclical-type components in the next Farm bill, and each 
group defines these countercyclical payments as different 
options, but really, the desire for the basic safety net for 
the farm production is clear in each proposal. We have other 
common concerns about maintaining planting flexibility; to 
continue basic support programs; conservation incentives and 
support for value-added agriculture.
    The National Corn Growers came with a proposal for 
decoupling payments for production flexibility and their 
countercyclical program. This was addressed somewhat in the 
House Ag Committee. It was named a little bit differently but 
almost ended up accomplishing the same things. The LDP program 
for Minnesota farmers has been an important contributor to farm 
income in the recent years. We would like to see this program 
continued but do suggest two changes to address important 
issues for Midwest farmers: First, the late harvest season for 
the northwest states, our producers often miss out on some of 
the better LDP payments, and if we could have an LDP payment or 
at least lock in any time during the crop year, that could be a 
value to Minnesota agriculture.
    The payment itself would not be made until after the 
production could be proven, but we would like to be able to 
lock in that LDP at any time.
    Another problem that has occurred with LDPs is that they 
sometimes vary drastically across our state or even county 
lines, and you have to remember that LDP is calculated off the 
lower of the two terminal prices or, I mean, the higher of the 
two terminal prices for a geographical area plus giving us a 
lower LDP. If those two terminal prices could at least be 
averaged, it would give us a little more realistic LDP.
    You have to remember for Minnesota, my terminal delivery 
points would be Minneapolis-St.Paul and Portland, Oregon, 1,700 
miles apart.
    The Minnesota Corn Growers also recommends an increase for 
farmer-owned processing. The support there, like the support 
that the USDA has given for Minnesota soybean processors; those 
types of grants and loan guarantees are very important for the 
future of agriculture. It is clear that this country is 
beginning to realize the need for agriculture and renewable 
energy plan to play an integral role together for our nation's 
energy policy.
    Ethanol, e-diesel, biodiesel, they are fuels of the future, 
and it is important for farm policy to consider this market 
opportunity. The key for farm profitability in the future will 
be effective utilization and processing of a crop that will 
continue to grow in size. Viewing farmers as energy providers 
in additional to their traditional roles as providers of food 
will create opportunities for Minnesota's farmers, strengthen 
the environment and revitalize our communities.
    Thank you very much.
    [The prepared statement of Mr. Tusa can be found in the 
appendix on page 61.]
    Senator Dayton. Thank you, Loren, for very excellent 
testimony. Thank you.
    Next is Ed Hegland, who is the president of the Minnesota 
Soybean Growers Association; Ed, thank you for being here.

 STATEMENT OF ED HEGLAND, PRESIDENT, MINNESOTA SOYBEAN GROWERS 
                          ASSOCIATION

    Mr. Hegland. Good afternoon; thank you. My name is Ed 
Hegland, and I am a soybean and corn farmer from Appleton, 
Minnesota. I am proud to be serving as the current president of 
the Minnesota Soybean Growers Association. I would like to 
express my appreciation to you for conducting this agricultural 
hearing today. The Minnesota Soybean Growers Association looks 
forward to working closely with you in developing effective ag 
legislation.
    I would like to address my verbal comments regarding the 
U.S. energy policy legislation now being developed by Congress 
but have included in the written testimony MSGA's comments and 
recommendations on the upcoming Farm bill. Personally, as a 
soybean farmer, I am extremely optimistic about the role 
biodiesel can plan in a national energy plan. MSGA is very 
optimistic that the energy policy should and will include 
plant-based alternative fuels, including biodiesel. Biodiesel 
is environmentally friendly and a renewable alternative to 
petroleum-based diesel fuel. It can be made from soybean oil, 
recycled fats and other vegetable oils.
    Biodiesel should be produced in Minnesota, where 
agricultural commodities are at the end of the export pipeline 
and at the end of the petroleum oil import pipeline.
    Minnesota led the way in the development of ethanol, a 
corn-based alternative fuel for gasoline engines. Once again, 
Minnesota hopes to lead the way in the promotion and production 
of biodiesel, designed to clean up the harmful emissions from 
diesel engines. When it convenes next February, the Minnesota 
Legislature will be reconsidering legislation that would 
require the inclusion of 2 percent biodiesel in the state's 
diesel fuel supply.
    MSGA strongly supports and much appreciates Senator 
Dayton's recently introduced bipartisan legislation designed to 
prompt and encourage the increased use of biodiesel nationally. 
We believe that Senator Dayton's national legislation will 
complement our pending state legislation and positively 
influence the Minnesota State Legislature to pass the 2 percent 
biodiesel requirement in February.
    I also want to express appreciation for the efforts of 
Senator Paul Wellstone and Representatives Gil Gutknecht, 
Collin Peterson and Mark Kennedy for their commitment to 
biodiesel, ethanol and other plant-based alternative fuels. 
Working together, with each day, more of our energy will come 
from the Midwest and not the Mideast.
    That concludes my statement, Chairman Dayton. I want to 
thank you for convening this important hearing and for inviting 
us all to testify. I will be glad to respond to questions at a 
later time. Thank you.
    Senator Dayton. Thank you, Ed. I have never in my career 
been able to influence the Minnesota Legislature to do 
anything, but I hope this will be the first.
    [Laughter.]
    Senator Dayton. Next is Larry Liepold, who is the president 
of the Minnesota Pork Producers Association. Larry, welcome.

 LARRY LIEPOLD, PRESIDENT, MINNESOTA PORK PRODUCERS ASSOCIATION

    Mr. Liepold. Thank you. In the interests of time, I will 
abbreviate some of the things I read. I will read the total 
titles. You do have the full copy in front of you.
    My name is Larry Liepold. I am a pork producers with a 120-
sow farrow-to-finish operation in Jackson County, Minnesota, 
about 20 miles from here. I am the current president of the 
Minnesota Pork Producers Association. I am pleased to discuss 
with you this afternoon the critical issue of agriculture 
concentration and its impact on pork producers and consumers.
    Agricultural concentration is a difficult and emotionally 
charged issue. Many pork producers are concerned about their 
ability to continue to compete and maintain market access in a 
hog market experiencing increasing levels of concentration. 
Until information systems that can help pork producers compete 
in the marketplace are developed, and producers such as myself 
have the ability and access to use this information, I am 
concerned the concentration and its potential to create 
noncompetitive business practices will remain.
    Concerns such as these led producer delegates to the 
National Pork Industry Forum to consider several agricultural 
concentration resolutions from member states and pork 
producers. After considerable discussion and debate, producer 
delegates agreed to support the following positions on 
agricultural concentration and market regulation issues: USDA 
hog market structure and competitiveness study: the U.S. 
Department of Agriculture should conduct studies on hog market 
structure and competitiveness issues within the pork industry, 
outlining present realities, future scenarios and the 
implications for producers' economic wellbeing on our nation's 
food supply.
    Price discrimination: the definition of price 
discrimination should be clarified. A prohibition on price 
discrimination should be established, and the Secretary of 
Agriculture's authority to challenge price discrimination 
should be strengthened. The USDA study of justifiable price 
differentials: the Department of Agriculture should study the 
factors that comprise economically justifiable price 
differentials, including factors such as volume, time of 
delivery and carcass specifications. A study of the Department 
of Justice concentration threshold levels: adherence to 
antitrust laws; continued scrutiny of the packing and 
processing industry on the national level to assure adherence 
to Federal antitrust laws; new antitrust laws should be 
considered that assure opportunities for independent hog 
producers.
    The USDA merger-acquisitions review: the Department of Ag 
should be given new authority to recommend to the Department of 
Justice approval or disapproval of agricultural mergers, 
acquisitions and consolidation of agricultural input suppliers 
and processors. The USDA corporate structure report: a deputy 
attorney general for agriculture; a deputy attorney general for 
agriculture position should be created at the Department of 
Justice. Packers and Stockyards Act enforcement; packer 
ownership; the National Pork Producers Council is neutral on 
the issue of packer ownership. However, the Minnesota Pork 
Producers Association does not share in that same view. We are 
supportive of a ban or, more practically, a limit on packer 
ownership. I do urge you to be careful, though, not to infringe 
on the ability of Minnesota pork-producing families to move 
further up the pork chain.
    Producer bargaining rights: endorse the concept of 
legislation that requires processors to bargain with producer 
cooperatives. Finally, the new Farm bill should help address 
some of these issues through aggressive funding. Under the 
rural development section of the Farm bill, there is an 
opportunity to assist producers by providing grants to startup 
farmer-owned value-added processing facilities. During the past 
few years, economists of all stripes have pointed to the need 
for farmers to become more than commodity producers and capture 
more of the consumer dollar. Value-added enterprises may 
provide an exciting alternative for those producers willing to 
pursue them. In order to accomplish this, we recommend 
increasing this funding to $370 million over 10 years.
    Thank you.
    [The prepared statement of Mr. Liepold can be found in the 
appendix on page 63.]
    Senator Dayton. Thank you, Larry.
    Our next panelist is Monica Kahout, who is here 
representing the Land Stewardship Project. Welcome, Monica.

      STATEMENT OF MONICA KAHOUT, LAND STEWARDSHIP PROJECT

    Ms. Kahout. My name is Monica Kahout. My husband and I and 
our children farm near Olivia, Minnesota area, and as Senator 
Dayton said, I am representing the Land Stewardship Project.
    I would like to make three basic points: first, we are on a 
terrible path in American agriculture. For too long, too many 
farms and too many elected officials have followed the lead of 
the checkoff-funded commodity groups and corporate 
agribusiness. These groups gave us the terrible freedom to farm 
policy, helping to drive prices down for most of us farmers 
while shelling out major payments of our tax money to the 
largest producers.
    Earlier this year, the president of the National Pork 
Producers Council testified in Washington for a 20 percent 
reduction in the soybean loan rate. That means lower soybean 
prices; cheaper feed for the largest hog factories; and 
ultimately, fewer farmers on the land and further extraction of 
wealth from rural communities. We must change policies, and we 
must reject the self-appointed leadership of the commodity 
groups.
    As a hog farmer, I am proud to day that I am part of the 
majority in the swine industry that has rejected the NPPC and 
the mandatory pork checkoff, and as a farmer, I say now for 
many of us in this crowd is that you do not speak for us.
    We believe in democracy, and we, the family farmers and 
prosperous rural communities and healthy environment, so we 
want our vote back, and honor our votes.
    Second, we must recognize that farming America's land is 
about more than maximizing production of raw materials for 
corporate America. Farming in a free and strong country is 
about producing feed, feed and fiber, yes, but it is also about 
caring for the land, contributing to the community with time 
and money and holding our nation's most precious asset, our 
land, in trust for future farmers.
    There is no better way than to help sustain the family 
farmer. We need policies that recognize all the benefits--all 
the benefits--that farm families bring to their communities and 
the nation. We cannot continue our current policies that feed 
the expansion of agribusiness and consolidate factory farms.
    My last key point is that many of our forebearers settled 
in this land in the 1800's under the Homestead Act to help 
promote the passing on of the farm and to homestead it; the 
Packers and Stockyards Act; helping farmers to have a higher 
price. What has happened? Tiger Woods gets 10 cents for every 
box of Wheaties with his picture on it, and the farmer gets 
three and a half cents for the wheat in the same box. Something 
is seriously wrong.
    When Smithfield can buy up John Murrell, then Dakota Pork 
and proceed to shut it down; then, buy the services of the head 
of the antitrust division of the United States Department of 
Justice just weeks after he stepped down, something is 
drastically wrong in rural America.
    First and foremost, we need a moratorium on large corporate 
mergers and acquisitions in agriculture, whether it is at 
Smithfield, Land'o'Lakes, Monsanto.
    We need it now. Thank you very much.
    [The prepared statement of Ms. Kahout can be found in the 
appendix on page 69.]
    Senator Dayton. I want to thank all of our panelists for 
excellent presentations, and I want to see, since we are 
running in good shape on time; you all were very succinct, if 
any of our members here want to have a question of any one of 
the panel or all of the panel.
    Congressman Kennedy.
    Mr. Kennedy. Thank you for all your good testimony, and it 
is always great to hear the perspective straight from 
Minnesota, because as it has been pointed out, sometimes the 
national organizations do not always have the same point of 
view as the local organizations, and I am very happy not only 
to hear your views but very happy that the Second District, 
that every member of the panel has Second District roots, 
recognizing the importance of agriculture here in the Second 
District of Minnesota.
    One of the things I would like maybe to have a couple of 
you comment on is many of you talked about the importance of 
value-added production and keeping more of the earnings and the 
dollars with the farmer, and we have a perfect example of that 
right next door here with Brewster, with the Minnesota Soybean 
Processors moving forward on a plant, and I was happy to be 
able to be there when we awarded a USDA grant of a half a 
million dollars to them. Several of you have mentioned those in 
your testimony.
    We, in the House agriculture bill that we just passed, have 
$500 million over the next 10 years, $50 million a year, to 
work with continuing those types of grants. Maybe if I could 
get a couple of you--I know Bob, this was something you 
mentioned and whoever else might want to talk about some of the 
things that that could mean and where that could maybe take 
agriculture.
    Senator Dayton. Bob or anyone?
    Mr. Tusa. On behalf of the Minnesota Corn Growers, we see 
the potential for ethanol as a national market, and if I need 
to point out what work you three have done on energy; Senator 
Wellstone, we nagged on you long and hard to help us when 
President Clinton was in, and you came through for us. Senator 
Dayton, we and the soybean growers have worked on your 
biodiesel thing, and it is like ooh, you are bringing that 
forward.
    Senator Kennedy--or Congressman Kennedy; I guess I did not 
want to promote you today----
    [Laughter.]
    Mr. Tusa [continuing]. The work you have done on value-
added agriculture for Minnesota has been important. I know you 
helped secure two grants for us.
    We see somebody going to make money on ethanol and 
renewable fuels, and we want it to be farmers. That is why it 
is going to take some help in helping us get those set up. It 
is not only in the energy of ethanol and biodiesel and e-diesel 
but the wind energy that we could be harvesting and the methane 
gas down the road here, when we can join that from the 
livestock energy; and also, livestock itself is another basic, 
value-added opportunity for farmers, and we just do not want to 
slam the door on any of those.
    Aanything that you can do to help on those types of 
programs would be very much appreciated.
    Senator Dayton. Well-said; well-said; thank you.
    Anybody else want to comment on that?
    Mr. Arndt. Only one comment I want to make for the same of 
time: I agree.
    Mr. Frederickson. Well, on the issue, Congressman Kennedy, 
of value-added, Representative Doug Peterson is in the room and 
kind of wrote the book on ethanol development in Minnesota. I 
had a small amount to do with that back in the mideighties, and 
I believe that we have the model here in the nation. We made 
some mistakes as we went through that process in that we did 
not ensure that every farmer had an equal chance, and you may 
say, well, they did; they could write the check to join the 
value-added cooperative or the closed cooperative, and in many 
cases, they could not.
    If we move ahead, we need to remember that every farmer or 
farm family should have an equal opportunity to participate in 
this new wonderful concept of value-added agriculture, and you 
might be able to do that through the U.S. Department of 
Agriculture through rural development to assist in those 
producers who choose--actually encourage them to participate.
    Senator Dayton. Thank you.
    Senator Wellstone, do you want to say anything or ask 
anything?
    Senator Wellstone. No, Mr. Chairman, I will just--there are 
so many people I know are going to want to speak, so I will 
hold until a little bit later on.
    Senator Dayton. OK; let us open it up, then, to anyone in 
the audience. We have two microphones, one on each side there. 
Would you like to make a statement? Again, we would ask if you 
could limit your remarks to 2 minutes, please, so we give a 
chance for everybody to be heard. We will just go from one side 
to the other. We are going to start with you, sir.
    The panelists are welcome to stay and listen and respond 
with us. You are welcome to leave, too. If you have other 
appointments on your schedule, please leave.
    Let us give our panel one more round of applause for 
everybody.
    [Applause.]
    Senator Dayton. You are welcome to stay, and if you need to 
leave, please, now or at any point, please.
    Mr. Frederickson. If we leave, can we come back?
    Senator Dayton. Well, that is twice the admission.
    [Laughter.]

      STATEMENT OF TIMOTHY A. HENNING, LISMORE, MINNESOTA

    Mr. Henning. Senator Dayton, Senator Wellstone, Congressman 
Kennedy: Senator Wellstone, you have referred to freedom to 
farm as freedom to fail. I could not disagree with you. 
However, freedom to farm has worked perfectly, just the way it 
was designed. It took the money from the government; gave it to 
the farmer; allowed the processors, be it meat, grain, to steal 
our product and make us look like the welfare leeches to the 
rest of society.
    When you are writing this next Farm bill, you must first 
realize who is representing who. These commodity groups think 
they represent us. The only way that that can be proven is by a 
vote on their checkoffs. These gentlemen up here should be 
either--resign and say----
    Senator Dayton. OK; sir, I am going to intervene here. You 
are welcome to state your views, but I do not think we are 
going to get into attacking people who are here participating. 
I am going to ask that you refrain from doing so. Thank you.
    Mr. Henning. We need to have a vote on the checkoffs. It 
must be done.
    Second, the farmer wants price. He does not want government 
payments. If we look at the 1995 prices that farmers received, 
corn of $3.14; today, I get $1.61. The rest has to come from 
the government. The LDP program has not worked, and we must 
have payment limitations in order to keep the expansion of 
large-scale farms from going wild.
    Supply management: General Motors does not produce all the 
cars in the world. We have a Wal-Mart approach here. We are 
going to produce slightly over wholesale and try to do it on 
volume. Nobody else in business does that, so why should the 
farmer be asked to?
    Senator Dayton. Thank you.
    Could I ask each of you, when you start, to state your name 
for the record.

        STATEMENT OF HON. DOUG PETERSON, MEMBER OF THE 
         MINNESOTA HOUSE OF REPRESENTATIVES, MADISON, 
                           MINNESOTA

    Mr. Peterson. Thank you, Senator Dayton. I am 
Representative Doug Peterson from Madison, Minnesota. I also 
represent the western counties in rural Minnesota. I want to 
thank Senator Wellstone, Senator Dayton for doing the work here 
today to bring forth some of the testimony.
    The work that you gentlemen and your colleagues are going 
to do on the next Farm bill is really about managing change. 
The structure of agriculture is going to change. The question 
is how we shape that, or do we just let it happen? Do we just 
simply let it happen? I am going to outline a voluntary 
proposal hopefully that will let us direct some of the change. 
First, before I do that, I want to say that I strongly support 
the major overhaul that exists in freedom to farm. Freedom to 
farm has clearly failed. We need to raise all of the commodity 
loan rates; restore the on-farm storage program. You have to 
have a stronger conservation reserve; increase dairy price 
supports, and we also have to have an increase and a new 
direction in agrienergy development and also open new markets.
    Collin Peterson has some pretty good proposals in front of 
Congress, and I wholeheartedly support that. Those reforms are 
essential to our food production system, and that has been 
developed over the last 100 years, and it does not mean that we 
cannot think in a new direction in a new market and new options 
for farmers. What I want to do to talk to you today: when I 
talk to farmers, many of them want to get off this financial 
merry-go-round of capital-intensive farming. They do not want 
the headaches, and they do not want the hassles of running huge 
farms with mounting debts, mental anxiety and also keeping up 
with the corporate concentration and the competition from the 
mega-corporate farms.
    Our next Farm bill should provide producers with a 
voluntary opportunity, and I want to stress voluntary. Let us 
give farmers a new market agriculture. Let them choose the 
tools they need to practice a different kind of agriculture. 
This simply may be specialty crops, specialty crops that are 
targeted for consumers, and in conjunction with these crops, we 
also want to target the markets to help these people market 
directly to consumers and retailers; give them access to 
experts and connect them to state, local and worldwide markets. 
This is an essential element of also probably bringing high-
speed access to rural Minnesota on the Internet.
    In my proposal, I would let farmers get off the Federal 
commodity programs, and I would give them 3 years of payments 
to allow them to find their own way on a new alternative path 
for agreement. We can set the payments at the same 
traditional--I understand that. We can set the payments at the 
levels that they have received if they stayed in the 
traditional farm program, and instead of moving 10 to 20 
farmers, to 10 to 20 farmers per county, we will hopefully see 
more successful family farms producing for international 
markets.
    Now, this program is not for everybody. Many will choose to 
stay on their own program, something they have been successful 
with, traditional programs, but that is fine, and we need those 
kinds of farmers. We need to give the opportunity and 
availability for other farmers to have a real choice.
    Senator Dayton. You are out of time.
    Mr. Peterson. I will try to sum up.
    Senator Dayton. We have your materials here. We asked 
everybody to stay to 2 minutes. We have so many people lined 
up.
    Mr. Peterson. OK; I will just leave it. Thank you very 
much.
    Senator Dayton. Sum up, then; sum up.
    Mr. Peterson. Thank you very much. What I am saying is 
simply, if we go to alternative markets and give people a 
transition away from the capital-intensive farming that they 
have been told that agribusiness and the corporate 
concentration is hitting us in the head, we are not going to 
have any success; we are going to fail.
    I am saying there should be a voluntary program to already 
use the existing implemented programs that we have out there, 
extension, those people, the marketing, and move those people 
who voluntarily choose a new path. Let us give them the tools 
to do it. Let us keep people in rural Minnesota while they are 
doing it, and let us pay them to do it.
    Thank you.
    Senator Dayton. Thank you.
    There are 24 people waiting to speak, and so, at 2 minutes 
apiece, that is 48 minutes. I would ask you to keep your 
remarks to 2 minutes, please.
    Sir.

 STATEMENT OF CHRIS C. PETERSEN, VICE PRESIDENT, IOWA FARMERS 
                    UNION, CLEAR LAKE, IOWA

    Mr. Petersen. Good afternoon. My name is Chris Petersen. I 
am vice-president of the Iowa Farmers Union, and I am not too 
happy about much of anything to do in agriculture. With freedom 
to farm, it is called freedom to fail in a lot of circles. With 
their low darn prices and their limited death payments; we 
should do away with the LDPs; get rid of them; raise the loan 
rate to cost of production or close to it. Let us make 
corporate America pay for our price and these darn animal 
factories pay for their price to feed their junk which they are 
feeding this country. Family farmers can raise it a lot better 
and more efficiently, and it is more quality food.
    A couple of other things: the EQUIP program; I understand 
there is a lot of talk going on to open this up to large-scale 
animal factories. This needs to go to small livestock 
producers. We need to keep that money funneled to the small 
family farms. We need farm policy based on and targeted to the 
family farm based around conservation, period. The 
corporations, I am sure they will find a way to make money.
    My last comment is about commodity groups. I am waiting for 
the day when we have some testimony like this; every person up 
there will be a family farmer. Let us put the commodity groups 
out here; let us make them defend themselves for a change. I am 
tired of their garbage. Most of them do not represent us.
    Senator Dayton. Thank you.
    Thank you very much, sir.
    Mr. Petersen. Thank you.
    Senator Dayton. Yes, sir?

         STATEMENT OF DENNIS BOTTEM, PRESIDENT-ELECT, 
 MINNESOTA STATE CATTLEMEN'S ASSOCIATION, ST. JAMES, MINNESOTA

    Mr. Bottem. I am Dennis Bottem, president of the Minnesota 
Cattlemen, another one of them darn commodity groups, I guess.
    Senator Dayton. Welcome.
    Mr. Bottem. By the way, our particular group does not get 
one penny of checkoff funds, so do not pick on us for the 
checkoff problems.
    It is a real illustration of democracy in action here 
today: people lined up; anybody who wants to come and speak can 
talk to our two Senators and our local Representative, and I do 
not know how you can get more democratic than that.
    Minnesota cattlemen or cattlemen in general, I have always 
been an independent group, and maybe we still are today, and 
that is why I am glad to associate with them. We do not ask the 
government for a whole lot of help, but we are coming to a 
point where we have such different rules in this country than 
so many of our competitors that the day when we could be 
completely independent is probably gone. From the livestock 
perspective, I would especially encourage that the EQUIP 
program be funded. Contrary to what was mentioned earlier, it 
should be a certain payment level, and every producer should be 
eligible for a small amount. Just because you are large; 
because you are three brothers, two brothers and their kids 
farm, should not rule you out for these programs.
    As far as the present farm program, three things that I 
would certainly like to see kept: the marketing loan LDP 
concept provides a price to the growers; moves the product into 
consumption, be it for ethanol, for feed production or 
whatever. We as an industry do not like to see setasides. When 
there have to be setasides for conservation uses, I would argue 
that these uses, this land could be better used for grazing. We 
hear people, county commissioners and so on in this area 
complaining our tax base is going, and then, we constantly add 
programs to take more land out of production. If we would just 
allow grazing, for example, on these lands, we would at least 
keep some production on these lands and at virtually no cost to 
our Federal Government.
    Thank you.
    Senator Dayton. Thank you for your excellent comments. 
Thank you.
    Senator Wellstone. Could I just a quick interruption, just 
a point of quick privilege for a second? I just wanted to, 
because I will forget at the end, Chairman Dayton, I wanted to 
thank the two signers that have been here. I notice how hard 
you all are working as everybody is speaking. I am glad you are 
here. Thank you very much.
    Senator Dayton. Thank you.
    Yes, sir.

     STATEMENT OF BOB KIRCHNER, FARMER, BREWSTER, MINNESOTA

    Mr. Kirchner. My name is Bob Kirchner. I am a soybean and 
corn farmer from Brewster, Minnesota. Good afternoon, Senator 
Dayton, Senator Wellstone and Congressman Kennedy and other 
panel members. I am currently serving as president of the Board 
of Directors of the Minnesota Soybean Processor Cooperative. 
This is a farmer-owned, closed cooperative. At the present 
time, we have 1,100 farmer members, and we have gained just 
under $13 million in equity commitment toward building a 
soybean processing facility near Brewster, Minnesota.
    The present plans are to include biodiesel when we have a 
viable market. I appreciate the opportunity to give testimony 
here today and have input in the formation of the new Federal 
farm bill, especially in the role that biodiesel can play in a 
national energy plan. Besides submitting written testimony, I 
would like to verbally highlight the role biodiesel and the 
Minnesota soybean processors can play in giving farmers a 
better economic future.
    Minnesota soybean processors support and appreciate Senator 
Dayton's recently introduced legislation to promote and 
encourage the increased use of biodiesel nationally. We believe 
that Senator Dayton's bill will complement our pending 
Minnesota 2 percent biodiesel bill, and the two bills working 
together will have a dramatic impact on farmer profitability.
    Here are just a few of the facts to emphasize the impact 
that biodiesel can have on our farmer profitability. In the 
United States, soybean oil has been the oil of choice, 
representing over 80 percent of our vegetable oil market. At 
present, two and a half billion pounds of soybean oil are in 
storage in the U.S., resulting in historic low soybean prices 
and depressing the soybean market for the last 2 years. The 
U.S. consumes approximately 30 billion gallons of diesel fuel 
annually. A 2-percent biodiesel requirement would use 4.4 
billion pounds of vegetable oil. If a majority of this could 
come from domestic soybean oil, it would virtually eliminate 
the 2.5 billion pounds of soybean oil that is presently in 
storage.
    With that, I would like to thank you for the opportunity to 
give testimony here, and I appreciate--thank you.
    Senator Dayton. Thank you.
    Thank you very much.
    I just want to say if anyone has additional written 
testimony, give it to one of our associates here. We will make 
it part of the hearing record.
    Yes.

   STATEMENT OF AARON KUEHL, PHEASANTS FOREVER, JANESVILLE, 
                           MINNESOTA

    Mr. Kuehl. Mr. Chairman, members of the committee, my name 
is Aaron Kuehl. I am a regional wildlife biologist for 
Pheasants Forever, living in Janesville, Minnesota. Thank you 
for the opportunity to come here today and discuss with you the 
conservation title of the 2002 Farm bill.
    Pheasants Forever was founded in 1982 here in Minnesota. We 
have grown to a national organization with 90,000 members. In 
Minnesota, we have 57 chapters working hand-in-hand with 
landowners and farmers to get wildlife benefits on the land. 
Last year alone, we completed 874 projects on 7,000 acres in 
the state and over 32 projects nationally. Many of our projects 
are completed in association with Federal farm conservation 
programs, and we believe the cornerstone of the new Farm bill 
conservation title should be based upon improving successful 
programs.
    At Pheasants Forever, we support the expansion of CRP to 
the initial 45 million acres based on soil, water and wildlife 
conservation objectives. If new program objectives are added, 
they should be authorized on acreage above the 45 million acre 
level. Expansion of the Wetland Reserve Program to accommodate 
250,000 acres of enrollment per year; expansion of the Wildlife 
Habitat Incentives Program to 100 million in expenditures 
annually; and establishment of a new grassland protection 
program of at least 1 million acres.
    Here in Minnesota, we are working to implement the CRP 
buffer initiative and the newly available Wetlands Pilot 
Program. We would encourage you to make the Wetlands Pilot 
permanent in the next Farm bill. This practice is proving to be 
a win-win situation for both farmers and for wildlife. Farmers 
benefit from a nonregulatory, voluntary, incentive-based way to 
deal with the problems associated with farming in and around 
small wetlands. Pheasants and other wildlife benefit from the 
habitat provided by this program. We are strong supporters of 
the Minnesota Conservation Reserve Enhancement Program Project 
and support continued authority for CREPS nationwide.
    Mr. Chairman, at Pheasants Forever, we look forward to 
working with you in the coming months to craft a strong 
conservation title for the 2002 Farm bill. Thank you for the 
opportunity to appear here today.
    Senator Dayton. Thank you, Aaron.
    Thank you.
    Welcome.

         STATEMENT OF LAURA RAEDEKE, NISSWA, MINNESOTA

    Ms. Raedeke. Hi; my name is Laura Raedeke. I am from 
Nisswa, Minnesota, formerly of Worthington.
    The current emphasis on large-scale industrialized 
agriculture not only siphons wealth away from most farms and 
rural communities, but it also results in serious food safety 
issues that affect every American. Many of these issues center 
around gigantic confined animal feeding operations which 
generate huge amounts of waste that are filling our lakes, our 
rivers, our groundwater. The heavy use of antibiotics, of 
growth hormones; the fact that we use 500 different pesticides 
in our chemical-intensive grain production are indicated as 
factors in cancer formations; in degenerative brain and nerve 
tissue diseases; in immune system dysfunctions; in Parkinson's 
Disease; and it creates antibiotic resistance in foodborne 
bacteria.
    In the genetic engineering debate, we find that 
multinational biotechnology corporations, backed by predatory 
intellectual property laws, are hopelessly polluting the global 
food supply with crosspollination and contamination with their 
transgenic seeds. This results in permanently altered genetic 
codes. It creates new traits that have results that are 
unforeseeable and unknowable.
    Yet, at the same time, the fastest-growing sector in 
agriculture are the organic, sustainable ecofarming models; 
thus, a truly beneficial and visionary farm bill would assist 
farmers and consumers in unhooking from corporate control, 
moving to local control with locally available food supplies by 
supporting farms and businesses that rely on local support. 
This could be done, for example, by promoting marketing 
cooperatives that link consumers with farmers who can provide 
them with the products that they want.
    We should insist that all genetically modified seeds, feed, 
food, fibers be--there should be a moratorium on it.
    [Laughter.]
    Ms. Raedeke. I have more, but thank you very much.
    Senator Dayton. Thank you.
    Senator Dayton. Welcome.

          STATEMENT OF ROLF MAHLBERG, MINNESOTA WEST 
    COMMUNITY AND TECHNICAL COLLEGE, WORTHINGTON, MINNESOTA

    Mr. Mahlberg. My name is Rolf Mahlberg. I am the ag teacher 
here at Minnesota West Community and Technical College.
    You know, I was not going to admit that if the temperature 
was 85 or higher in here.
    [Laughter.]
    Mr. Mahlberg. I am pleased that we could host this forum, 
and it is just a wonderful tribute to our society when we can 
come forward like this.
    One of the concerns, and I have delivered written testimony 
is I have not heard the word youth mentioned one time. I guess 
I have a concern because as I go out and recruit young 
operators, I literally have to sell through their grandparents. 
I brought my father here today, and he is sitting here at 80 
years old, and he has passed on the 240 acres that I currently 
farm. It is a tragedy that I have to sit here and defend this 
industry as an ag teacher, because we cannot sustain a price 
that will allow the parent to even support that young person to 
come forward.
    As you draft a farm bill, I hope that you consider the 
sustainability of not only the earth and enhanced CRPs. We have 
plenty of corn and bean acres. Let us pass on a stewardship of 
the soil, the water, the land but also the stewardship of the 
family farm. Let these kids go forward with productive careers 
in agriculture.
    Thank you.
    [The prepared statement of Mr. Mahlberg can be found in the 
appendix on page 72.]
    Senator Dayton. Welcome, Anne.

          STATEMENT OF ANNE KANTEN, HAWICK, MINNESOTA

    Ms. Kanten. I am Anne Kanten. I am from that family farm at 
Milan, Minnesota, and I have my son with me today who is that 
farmer. I am very proud of him, but the tragedy is, relating to 
the last speaker, that his son, James, who we always thought 
would be the next generation is walking away, and that is hard 
to deal with.
    Thank you, Senators and Representative Kennedy for being 
here today. Certainly, Senator, I am old. I am tired. I am 
angry. I have been angry for a long time. Monica, you raised 
that up in this crowd. We all need to be angry.
    I have two suggestions today, quickies, I hope. One is a 
farm bill that, Paul, is everything that we ever wanted in a 
piece of legislation. It comes from farmers, farmers from 
Montana to Indiana have written this farm bill. They say price 
first and foremost, but they also talk about conservation, 
dairy, livestock, credit, marketing concentration, food 
security. It is an all-inclusive farm bill.
    My son, who has to crunch the numbers on that farm, is 
going to relate to the numbers.

           STATEMENT OF KENT KANTEN, MILAN, MINNESOTA

    Mr. Kanten. Well, what that does is economically will put 
me on the same footing as my friends who are not involved in 
agriculture, and that would take on about the same financial 
risks. It is not the barefoot hillbilly bill that we see too 
many of that if I had 40 acres and a mule, it might fit. This 
is modern agriculture, and it takes more than that to make a 
living for a family.
    One thing quickly: I am a member of the Farm Service Agency 
state committee, and whatever shape the new Farm bill takes, we 
have to quit some of these drop-dead penalties that we are 
looking at right now. A farm family from northern Minnesota is 
not in agriculture anymore because they had an $80,000 penalty 
for growing edible beans. It was simply a mistake of not 
combining two farms together. I can go through a long, long 
list of many people that have lost thousands and thousands of 
dollars because of simple paper-pushing mistakes at the FSA 
office, and the new Farm bill needs some relief granted through 
state committees, county committees, whatever, thank you.
    Senator Dayton. Since there are two of them, we can give--
Tom, if we can give them another 2 minutes here.
    Ms. Kanten. Another 30 seconds, maybe. The second idea that 
I would like to bring forth today relates to the power of our 
church; that we ought to get rid of some of the labels that we 
carry as NFO and Farm Union, Farm Bureau and come together in 
those church basements--that is why God created them--to debate 
and work out what we need to have.
    The way we are going to help do that is that we are 
organizing bishops, ecumenical bishops: five Lutherans, five 
Episcopalians, five Roman Catholics, five Presbyterians, 
Methodists, evangelicals or whatever to stand in front of that 
Senate committee and say we need justice. We need some morality 
in what we are doing with people not only in this country but 
people all over the world. With the Farm bill, that basically 
is almost evil; and the church has a responsibility to also 
address that.
    Thank you for your hard work.
    Senator Dayton. Thank you.
    Ms. Kanten. We will keep you on task.
    Senator Wellstone. Just a point of personal privilege, and 
I will do it in only 20 seconds, I promise you all.
    Anne, one of the small--I have two dreams, a little dream 
and a big dream. The little dream is that we have this hearing; 
this is a formal Ag Committee hearing here in Worthington, and 
we have another one in Stuartville. We should have a third one, 
and the third one should be right in the heart of the metro 
area. The faith community should be there. We should bring 
farmers and rural people in there, but we should have all the 
people who live in the metro area, and we should say this is 
not just for us; this is for you as well. I really believe we 
ought to have one of those in the metro area.
    The second thing is, and then, from there, I would like to 
see a whole lot of people involved in this process this coming 
fall, because this is going to be--probably what would you say, 
Mark?--over the next 5 months or 4 months, and we really need 
to figure out a way of having the voice of a lot of people 
directly linked to what we do. All of us would agree with that. 
We can.
    Senator Dayton. Yes, sir. Welcome.

       STATEMENT OF LINDEN OLSON, WORTHINGTON, MINNESOTA

    Mr. Olson. My name is Linden Olson. I farm just three miles 
exactly straight south of here, and with all due respect to the 
people that are here before me, I represent no particular group 
today, and probably, that is one of the few.
    What I would ask you gentlemen this afternoon is to be very 
careful not to get caught up in the emotionalism of short-term 
solutions to a long-term problem. I have heard here repeatedly 
this afternoon we need a higher price, a higher LDP. The only 
thing that higher prices and higher LDPs does is benefit the 
landowner. The landowner gets so he can get loans on a higher 
value piece of property, or he can charge higher rents to the 
people he rents it to.
    The beginning farmer must rent to start out. They get 
caught up in the higher rents, and they wind up catching with 
the higher end. If we do any setaside in the higher loan LDPs, 
we wind up asking the farmers in South America to put more land 
into production to go on the world market to compete against 
us. Let us be very careful about these short-term solutions to 
long-term problems. We have proved that it has not worked in 
the past to do those kinds of things.
    The one thing that has some merit, and several of you have 
mentioned it, Senator Wellstone, Dayton and Representative, is 
the value added. Within the next 30 to 40 years in this 
country, we are going to have to replace and add a large amount 
of infrastructure in the food system. For another 25 percent 
investment of what a farmer already owns, he can control and 
own that whole chain from the farm to the market. With the 
value added in loan guarantees and low-interest loans that this 
infrastructure can be owned and controlled by farmers for 
consumers and the feedback down the chain.
    That is the type of farm program that we need to provide 
long-term sustainability to these particular entities in the 
local areas.
    Thank you.
    Senator Dayton. Thank you very much.
    Thank you.
    Yes, sir, welcome.

         STATEMENT OF PAUL GARVER, HENDRICKS, MINNESOTA

    Mr. Garver. I am Paul Garver, Hendricks, Minnesota. I am 
glad to be here to try to help the family farmer and to look at 
a new farm bill. I am probably the third or fourth generation 
farming. After nine children and 17 and a half grandchildren, 
if we do not get a different farm bill, a different outlook, 
none of them are going to be able to farm. You know, that is a 
lot of people out of one family that are not going to be able 
to farm.
    The new trends in agriculture have lowered the market price 
for commodities; they have forced the family farmers out of 
business; it is called the generation of the environment; the 
decline in quality of life in our rural America. 400,000 hog 
producers have gone out of business from 1982 until 1997. The 
number of hogs produced has remained the same. You are getting 
rid of the small people; the big ones are taking over. They 
just keep pushing.
    After that, the hog producers come to realize that the 
commodity groups were not for the small farmer. We put together 
a referendum; we had the vote; and we won. Anne Veneman came 
back and said no, I do not think so; let us just go on and keep 
giving them money, taking the money out of the small producers. 
Is this what we call democracy? Is this why you guys are up 
there? What if we had said hey, we did not vote for you; get 
out? Is that what you want?
    Well, this is what is happening. We have lost 4.1 American 
farmers since 1940. That is why I would like to see a new farm 
bill that is going to be for the family farm.
    Mr. Kennedy. Thank you, and unfortunately, I am going to 
take a point of privilege here to say that I have another ag 
forum that I had previously scheduled up in Sibley County in 
Arlington scheduled, so I am going to have to leave. I want to 
thank the Senators for inviting me to join them. I want to 
thank our panelists for their excellent testimony, and I want 
to thank all of you for being involved, because it is people 
who are involved in the process and expressing their points of 
views that really makes our democracy strong, so thank you for 
being involved, and I encourage you to continue to do so, and I 
will look and follow on to the discussions afterwards and the 
testimony.
    Thank you again for all being here and all the good work 
you do on behalf of agriculture.
    Senator Dayton. Thank you, Mark, for rearranging your 
schedule today to be with us. Thank you.
    Next, sir.

STATEMENT OF LES EVERETT, UNIVERSITY OF MINNESOTA EXTENSION AND 
          WATER RESOURCES CENTER, ST. PAUL, MINNESOTA

    Mr. Everett. My name is Les Everett. I work for the 
University of Minnesota Extension Service and the Water 
Resources Center. I live in St. Paul and work throughout the 
state.
    It is clear to all of us that conservation must be central 
to the next Farm bill if we want to continue public support. 
The public does not read the price of corn in the paper every 
day, but they do read about hypoxia, erosion; they read about 
nitrates in drinking water and so forth. Conservation has got 
to be central in the next Farm bill, and farm support payments 
need to be tied to conservation.
    However, I would like to speak to one small part of that 
program, and that is conservation education. The last 
Congress--for the 1996 Farm bill, they recognized that 
conservation education had to be part of conservation. If you 
are going to put in practices, have incentives, practices like 
nutrient management, grazing management, things that are a bit 
more complicated than just putting in a terrace or hiring an 
engineer; so there was a very small part of that program, EQIP 
was put in for education.
    Here in Minnesota, NRCS partnered with Extension and with 
state agencies. We went out and worked with some water 
conservation districts and put on 62 local conservation 
education projects. In addition to that, we had a program that 
dealt with nutrient management, grazing management and many 
other things.
    This was an interagency team that was brought together 
solely because of EQIP education. We had not done that before. 
It takes a central funding pool there to bring everybody to the 
table and speak with one voice with regard to conservation 
education. Recently, OMB almost zeroed out--they slashed that 
program in half. It was already only $4 million nationwide. 
Now, it is down to $2 million, which pretty much zeroes it out 
at the state level. That needs to be reinstated. Conservation 
education must be part of conservation programs.
    Senator Dayton. Yes.

     STATEMENT OF RODNEY SKALBEEK, SACRED HEART, MINNESOTA

    Mr. Skalbeek. My name is Rodney Skalbeek, and I am a farmer 
in Sacred Heart, Minnesota, and I just want to talk to you 
briefly about some of the things I would like to see in a new 
farm program. It would be a farm program that would not be for 
the Cargills and the Monsantos but for the farmers in the rural 
communities.
    Briefly, what it would be is let every farmer seal 25,000 
bushels of corn at $3 a bushel; 10,000 bushels of beans at $8 a 
bushel; or something like that. Anything over that that he 
produces, he could do one of two things on: sell on the open 
market or put in a reserve that he could use in a lean year, 
that way eliminating the need for crop insurance. It would also 
give the farmer or the Nation a grain reserve held by the 
farmers.
    You know, someone else has got to work all the figures out, 
but it would also move a lot of people, a lot of young people, 
back on the farms. I have three sons. One is farming with me; 
the others would love to if they could afford to. Sad to say, 
they are married, and they cannot. My son who is farming with 
me is single. He can afford to farm.
    [Laughter.]
    Mr. Skalbeek. There is one other thing that I would like to 
bring out, and that is I certainly support ethanol and 
biodiesel. There is another product that I would like to call 
your attention to, and that is soy oil. It is used in the 
manufacture of polyurethane. It can be used today. The 
technology is there. There is a carpet company down in Georgia 
that is looking to use it. John Deere just announced that they 
are going to use it in their tractors and combines.
    This is a 4-billion pound market every year for soybean 
oil.
    Senator Dayton. Thank you very much. Thank you.
    Yes.

 STATEMENT OF HON. FRANK KLOUCEK, A MEMBER OF THE SOUTH DAKOTA 
        HOUSE OF REPRESENTATIVES, SCOTLAND, SOUTH DAKOTA

    Mr. Kloucek. Honorable Senators, distinguished panelists, 
my name is Frank Kloucek, and I am a state rep from Scotland, 
South Dakota, and I am here today to say thank you----
    Senator Dayton. Welcome; a special welcome.
    Mr. Kloucek. Thank you--to thank our Midwest Ag Coalition. 
We had the opportunity to form a group of over 50 Midwestern ag 
legislators, including Doug Peterson, Ted Winner, Mary Ellen 
Otremba here in Minnesota, and I want to thank those three for 
their unselfish efforts to help family farm and small ranch 
agriculture.
    My opening statement, I would say anybody who supports 
lowering the loan rate should in fact themselves take a pay cut 
by that same percentage.
    I was very sad to see Mr. Kennedy leave early; sadly to 
say, the Congress adjourned early without addressing those 
issues on Thursday night. We had the update last night by Mr. 
Geebert. Alan Geebert gave us the wherewithal on that, and it 
put the Senate in a terrible situation. They have just begun--
we need to address those issues that they have let sit on the 
table, including raising funding and targeting that funding.
    It would support the 360 repeal, the 372, whatever you call 
it. We must get rid of that to make mandatory price reporting 
more effective. We must ask the Senate to do the meat labeling 
program despite what their colleagues in the House have done. 
We must stop the pork checkoff tax and abuse of pork producers 
now.
    The gentleman who said we cannot have fair loan rates is 
wrong. We can have them with fair payment limitations that 
target our family farmers. In fact, we should be raising those 
loan rates.
    A man named Bernie Hunoff said we must build within. On our 
exports, we will not export our way out of this. I endorse Doug 
Peterson for Congress or Governor or whatever he runs for. I do 
think--and this is unsolicited--see, he is not even here to 
endorse it--we need people like him. I want corporate America 
to make a fair profit, but corporate greed must end now.
    We are having an organic hog farm meeting in Tindall, South 
Dakota on August 16, and we are asking if anybody is 
interested, we will be at Teddy Winner's, if you want some 
information on that.
    Good luck in your noble work. We wish you the best.
    Senator Dayton. Thank you.
    [Applause.]

      STATEMENT OF BRIAN ROMSDAHL, BUTTERFIELD, MINNESOTA

    Mr. Romsdahl. Greetings to both Senators. My name is Brian 
Romsdahl. I am a diversified farmer from Oden Township, and I 
would like the Senators to know that one farm organization and 
some of the commodity groups do not speak for family farmers. 
We need higher loan rates. All cheap grain does is to make 
cheap livestock, and I do not feel like subsidizing these 
factory feedlots and large hog outfits with any more of my 
below cost of production grain. This has to end.
    We need $3 for corn and $6.50 for soybeans; no more LDPs 
and maybe have some payment caps on individual farmers. Second, 
we need to limit imports of agricultural commodities into our 
already-depressed farm economy. I do not care what the WTO and 
NAFTA might say. We are an independent, free, sovereign nation 
and need to take care of ourselves first. We have cemeteries 
full of brave men who have fought and died for these basic 
principles, and this is just a slap in their face.
    Finally, let the vote on the pork checkoff stand. It was a 
legitimate, legal vote, and just because it did not turn out 
the way one certain commodity group wanted it to does not mean 
that democracy should not prevail.
    Thank you.
    Senator Dayton. Thank you. Thank you.
    Senator Wellstone. Larry, just real quickly, I wanted to 
respond to what Frank said, who travels all around the country. 
He is from South Dakota; he and Jack, another legislator from 
Iowa, they are just everywhere with people. On Pheasants 
Forever, really quickly, just could I make--before you leave; 
thanks for your testimony, and I will do this in the most 
judicious way. I mean, I really will. I will be very mellow in 
the way I say it, but we should have had a better--the 
emergency financial assistance package, and that is what it 
was; it was not the Farm bill--that came out of the House was 
at about $5.5 billion, and we were about $7.4 billion. By the 
way, when Mark Dayton says--I will just say it; he cannot stop 
me--when he says well they let me chair because I am 100, he is 
really--I have never seen anybody in such a quick period of 
time dig in with such effectiveness as he has done on ag 
policy. You need to know that.
    He worked on this; and he was key to this package. Oh, give 
that back.
    [Laughter.]
    Senator Wellstone. He was key to this package, and what I 
wanted to say is that the shame of it is that for Minnesota, 
who knows? It could have been another $100 million more; some 
of it were the AMTA payments, which I am not in love with, but 
it was additional assistance for people.
    Above and beyond that, we had so much by way of 
conservation, and I am telling you: I really count on Pheasants 
Forever and all of you guys, because you have been great on 
this to really help us, because that should have never been 
cut. What happened was the House adjourned--I am not knocking 
Mark Kennedy on this; this was not Mark's decision. The House 
adjourned. They left, and then, on the Senate side--and this is 
true--it was filibustered. We could not get 60 votes to move 
it, and therefore, the only choice that we had was to do the 
$5.5 billion.
    I just want to say: there was more in there for Minnesota 
and more in there for the country, and I am sorry it did not 
happen. That is the best way I can put it.
    The only other thing, and then, I am not going to do any 
more comments at all, but Colleen Lankhammer, whoever is 
running for office, Democrat or Republican, ought to be 
introduced, and she is running for the Congress in the First 
Congressional District and came over here, which does say 
something about her commitment to family farmers and 
agriculture. Thank you for being here, Colleen. You should 
stand up.
    [Applause.]
    Senator Dayton. Thank you.
    Yes, sir.

           STATEMENT OF LARRY GREEN, FULDA, MINNESOTA

    Mr. Green. Yes; my name is Larry Green. I am from Fulda, 
Minnesota, and I welcome the Senators here today. As Anne 
Kanten said, I am angry, too. I am very angry. Most of the 
people on the panel up here; when Anne Veneman was announced 
for Secretary of Agriculture, there is not one of you groups 
that fought her confirmation. If you go back and study her 
history, she worked for Ronald Reagan. She was George Bush's 
patsy in the Uruguay Round that got us to these prices.
    The commodity groups, the pork producers, about a million 
bucks a week to get you $8 hogs. The soybeaners, about a 
million and a half a week to get you $4 beans. I am mad, damn 
mad.
    [Applause.]
    Mr. Green. One of the articles that I would like to see in 
the new Farm bill that is no cost to the taxpayer is that if we 
want a checkoff, it is voluntary at the point of sale. I am 
tired of these parasites sucking me to no end.
    As a little example, in Worthington here a few months ago, 
there was a bank robbery. The guy got $5,000. The gentleman 
from the pork producers suggested in their testimony a 20 
percent cut in the loan rate. We raised 9 million bushels of 
beans in Nobles County. That is $9 million less money. Which 
business places in Worthington want $9 million less coming in 
their tills? I do not see anybody jumping up.
    Thank you.
    Senator Dayton. Thank you.
    Welcome, sir.

            STATEMENT OF RICK KEITH, OMAHA, NEBRASKA

    Mr. Keith. Thank you.
    My name is Rick Keith. I am with Producers Livestock 
Marketing Association, and I wanted to talk today a little bit 
about the 360 rule. Last fall, when that was put together, the 
packing industry had the 360 rule implemented that is also used 
in several government agencies to allow confidentiality of 
market reporting.
    Yesterday, the USDA announced a proposed change of the 
confidentiality standards for the mandatory price reporting 
from the 360 standard to a less-restrictive standard known as a 
370-20. This new standard will go into effect on August 20 of 
2001.
    This new, most recent Band-Aid, the new 370-20 rule, 
replaces the 360 rule because it is overrestrictive. Narrow 
application of the 360 rule resulted in substantial withholding 
of data to the public. The new rule is expected to allow more 
data to be released in a timely manner. If you want to talk 
about consolidation and merger mania, the packing industry 
asked that the 360 rule be implemented. They are so tightly 
held in such a small group that the rest of the country's rules 
that work for them, this is the only time that the 360 rule has 
not worked, in the packing industry, because it is so 
concentrated. Now, it has to turn to another rule. This 370-20 
is brand new; never been used in the United States before. It 
shows you how totally held in just a few hands the packing 
industry is.
    Thank you.
    Senator Dayton. Thank you. Thank you.


  STATEMENT OF MARK FROEMKE, PRESIDENT, NORTHERN VALLEY LABOR 
          COUNCIL, AFL-CIO, GRAND FORKS, NORTH DAKOTA

    Mr. Froemke. Hi; my name is Mark Froemke. I am president of 
the Northern Valley Labor Council, AFL-CIO, and for you all, 
that is in the Grand Forks-East Grand Forks all the way to the 
Canadian border. I have been through three states today, and 
they are all hot so----
    [Laughter.]
    Mr. Froemke [continuing]. A little weather report.
    Senator Dayton, it is good to see you and Senator 
Wellstone. I am a union person. I have been a union person my 
whole life. I work in a factory in East Grand Forks for 
American Crystal Sugar, which is a farmers' owned coop. I 
believe very strongly in agriculture. I believe very strongly 
in value-added factories like American Crystal Sugar. I believe 
very strongly that we in rural America have to stick together, 
or we will die.
    I believe what I want in the Farm bill is I want to save 
family farmers. I want to save our rural communities. I want to 
save our rural jobs. I want value added factories in our 
communities with union wages. I want a stop to ADMs, Cargills, 
Monsantos destroying the livelihoods of hundreds of thousands 
of people in this country.
    I am sick and tired of NAFTAs. I am sick and tired of WTOs, 
and I am sick and tired of fair trade of the Americas area. I 
am sick of these deals that destroy America and our jobs and 
our farms. The same companies that destroy this country like 
ADMs and Cargills and the meat packing industry, they grind the 
worker into the ground.
    If we could come together as workers, farmers and rural 
people, what we can do is save our farms, save our communities, 
save our schools, save our churches and save our families and 
have a life for ourselves in this community.
    Thank you.
    Senator Dayton. Thank you.

       STATEMENT OF PAT A. HABERMAN, BREWSTER, MINNESOTA

    Mr. Haberman. I am Pat Haberman from Brewster, Minnesota. 
I, too, would like to see the farmers' income derived from the 
market. However, in our government's attempt to babysit the 
world, the United States has trade sanctions or grain embargoes 
with more than 40 different countries that all our competitors 
sell to.
    This is just one significant reason that necessitates the 
legitimate government subsidy, and the current $1.72 ceiling 
price is not it for corn. Americans deserve to earn a fair 
wage, a minimum wage. In 1985, minimum wage was $3.35, and 
today, it is $5.15. In 1985, our ceiling price for corn was 
$2.35, and today, it is $1.72 per bushel. My break-even price 
using average yields is over $2.25. A legitimate ceiling price 
should be a break-even price plus a minimum wage for your 
efforts to produce it. I challenge anyone to find someone who 
can show me they can grow corn for $1.72 a bushel.
    Any other industry can adjust their prices for rising 
expenses and inflation. Why is it the burden of babysitting the 
world is placed on the U.S. farmer? As I see it, our government 
is forcing the U.S. farmer into bankruptcy.
    Senator Dayton. Thank you very much. You are really very 
well spoken; very well spoken. Thank you.
    Welcome.

         STATEMENT OF JEROME GRAFF, SANBORN, MINNESOTA

    Mr. Graff. My name is Jerome Graff from Sanborn, Minnesota, 
and I guess the gentleman before me took a lot of the words out 
of my mouth, but I guess two things or a couple of things here 
I would like to express my concern about. Since exports are not 
a quick cure for farm economic problems. Consumer demands are 
determined by four variables: the size of the human population; 
the income distribution of the human population; the tastes and 
preference of that human population; and the rules and laws of 
each nation governing the handling and distribution of finished 
products.
    I would like to say that the big corporations are really 
getting their way on this NAFTA and GATT, and it was their way, 
the big international businessmen, you go back to the sixties, 
the assassination of Kennedy; they were using the CIA to get 
involved in these covert activities to destroy governments that 
were not friendly to these big corporations.
    Well, if you go back and follow that, Garrison's, when he 
had that trial, he was the only one that tried the case against 
anybody trying to plot to kill the President. Garrison was the 
only one that ever tried to prosecute the case of a plot to 
assassinate Kennedy. These international businessmen, the one 
he was trying to get was Clay Shaw, and he told them we are 
going to make money off of society and have free trade.
    I feel that this was the beginning of it, due to the fact 
that he was trying to hold him down by having this order to 
restrict the power of the CIA, and we want Fast Track; the 
Secretary of Commerce, Donald Evans, says that the price spread 
between what the producer receives at the farm gate and what 
the consumer pays at the counter, according to the U.S. 
Department of Agriculture, is the highest it has ever been in 
history.
    He said he just got back from a conference, a global 
conference, and he said that the global market belongs to the 
low-cost producer; so, where is the profit? Not just in 
economic terms but in sustaining cultural, social and 
environmental issues.
    I guess these are the--we tried talking about what we are 
going to do with the Farm bill and raising the support price; 
if we are going to follow NAFTA and GATT, our hands are tied 
with it. We have to decide if we are going to put America 
first, and I hope we do.
    Senator Dayton. Thank you. Thank you very much.
    Welcome.

          STATEMENT OF DAN JUHL, PIPESTONE, MINNESOTA

    Mr. Juhl. Welcome, Senators. My name is Dan Juhl from 
Pipestone, and I have a small farm over there. It is not your 
traditional farm; it is a wind farm. I would just like to 
mention a few words that we have a tremendous opportunity in 
this part of the country to develop a new diversified crop for 
our farmers in the form of wind-generated electricity. The 
technology is there. There is huge farms being built as we 
speak all over this area, and we have a potential for the 
farmers to get involved with this and develop a new cash crop 
that can help sustain them through these times of up and downs 
of the traditional commodities.
    I just have one specific proposal that I would like to 
throw at you for you to contemplate, and that is access to the 
RUS financing mechanism similar to the way the coal plants were 
financed. If the farmers had access to that rural financing 
mechanism, they could get into this cash crop and help 
diversify their farms and make a decent living.
    Senator Dayton. Thank you. Thank you, Dan. That was an 
excellent specific suggestion. Thank you. Thank you.
    Welcome.

      STATEMENT OF JOHN NAUERTH III, LAKEFIELD, MINNESOTA

    Mr. North. My name is John Nauerth. I am a farmer and a 
rural country boy over here at Lakefield. I have not heard 
anything said about currency exchanges, and that seems to be a 
real problem, where Canadians can come down here and dump the 
hogs off here and make 30 percent more than their own 
producers. We have to get something tied to currency values, 
unless we go on a one world government, which there seems to be 
support of trying to push. Now, how that is ever going to work 
is beyond me.
    I had a little call this spring. A guy came over to see me, 
and he said, he said hey, what do you think about me quitting 
farming? I said gee, I do not know; I said I guess you have to 
kind of make your decision. He was really in a turmoil on that. 
We had 11 farmers quit in my area within a 10-mile radius, all 
under the age of 40. The average kids in the household was 
about three. That is 33 kids. A couple of them are content to 
be moving, but it just ain't worth it anymore.
    We are in a real sad state of affairs. Freedom to farm is 
not fair. I have a son who works for a manufacturing plant; 
corporate America is running people into the ground. If you 
cannot keep up, there is always an immigrant that we can pick 
up to take your place, and that is not right.
    Senator Dayton. Thank you.


       STATEMENT OF ROBERT A. DIETER, BREWSTER, MINNESOTA

    Mr. Dieter. Thank you, Senator Wellstone and Senator 
Dayton. My name is Bob Dieter, and I am a farmer in Brewster. I 
have farmed for 56 years and am still farming. I cannot get out 
of debt.
    [Laughter.]
    Mr. Dieter. I guess I will make some comments that probably 
you people will not like to hear, but it bothers me, and so, I 
guess that is why I am here. One of the main things that our 
Federal Government has sold us down the drain, because the cost 
of farming now is due to all of the regulations that we have. 
Do you realize that 27 percent of that combine that we buy is 
due to government regulation? That is $62,000 to $75,000 or 
$80,000 for that combine that I buy is just government 
regulations, and that is not including taxes.
    Our Federal Government has gotten out of line, and they are 
just spending too much money, and that is part of our problem. 
As far as the farm program goes, freedom to farm was OK, but 
the government did not hold up on their end. We lost exports 
when we should not have, and it is going to take many years to 
get those exports back again. That is part of our problem, that 
we have more production, and we cannot get rid of it.
    When you put sanctions on these countries, you cannot get 
them back again. You cannot get them into your program to 
import again. These are some things that we have to work on, 
and I hope that you people on the Agriculture Committee, now, 
you can work on some of those things.
    One thing: China exports 40 percent of their production to 
the United States. They are using our dollars to buy all of 
their military equipment from Russia. Think about it. Think 
about what is going to happen.
    Sugar program: I know we might have some sugar producers in 
this auditorium today, but a whole $130 million it cost the 
Federal Government to buy sugar, and it is costing $52 million 
just to store it. There is something wrong there.
    Thank you.
    Senator Dayton. Thank you, sir. Thank you very much.
    Mary Ellen. Welcome.

STATEMENT OF HON. MARY ELLEN OTREMBA, A MEMBER OF THE MINNESOTA 
                HOUSE OF REPRESENTATIVES, LONG 
                       PRAIRIE, MINNESOTA

    Ms. Otremba. Good afternoon, Senators. My name is 
Representative Mary Ellen Otremba from Long Prairie, Minnesota, 
which is in the center of Minnesota, and I am going to talk 
today a little about the dairy supply management, which needs 
to be done at the Federal level, because we have chronically 
low and unstable milk prices. In Minnesota in particular, the 
dairy industry on the family farm is eroding by the loss of 
three farms per day, which means about 200 and some farms have 
disappeared since the beginning of the year.
    Our purchasing power as dairy farmers has deflated to $6.96 
a hundredweight from its real value of around $23 a 
hundredweight, and the average production to a dairy farmer 
cost is $14 a hundredweight.
    There are currently about 6,700 dairy farms in Minnesota, 
and at three a day, that will quickly bring us down to just a 
few. Without a financially secure base of producers, the rest 
of the industry will collapse, beginning with the processors, 
who need a reliable supply of milk; the wholesalers; the 
retailers; and ultimately, the consumers in our small 
communities.
    To save our state's dairy industry in Minnesota, which is 
bigger than Northwest Airlines and Target combined, we need a 
dairy supply management act to stabilize these prices for 
producers. Everybody wins: farmers, processors, sellers, 
consumers and local businesses. Although we have a free market 
in dairy, it is not fair and open to the producers who are in 
the dark about inventory in the plants, milk pricing practices, 
movement of product into the state or the country and other 
factors affecting their pay.
    We have a shortage of milk in the United States, so the 
imports, questionably legal, keep the farmer's price low. This 
board would consider the balance between the production and the 
consumption of milk; the costs of production and distribution 
so that prices are fair to both producers and consumers.
    Senator Dayton. Go ahead. Take another 30 seconds.
    Ms. Otremba. OK.
    Recently, in the 1999 Farm bill, the processors were 
guaranteed a percentage in a formula. Right now, it is about 
$1.64 to $1.75 per hundredweight that they take out of the 
farmer's check to make sure that their cheese plants cannot 
fail. That amounts to somewhere between $10,000 and $40,000 for 
my average dairy farmer under 100 cows. Also, there are many 
other compacts that are working, and just recently at the 
Council of State Governments, which included 11 Midwestern 
states, we passed a resolution which was bipartisan from all of 
these 11 states asking Congress to please look at a compact for 
the upper Midwest dairies. If a compact does not happen, we are 
committed to do an alliance. Because there are states' rights 
involved, we would be able to pass a milk marketing act in each 
of our states and do an alliance which Texas and New Mexico 
have already done; Washington and Oregon have already done; 
Montana has their own; Pennsylvania has their own; New York has 
their own. We would move forward.
    I would just like to remind everyone on the panel, our 
Senators and the people in the audience, that throughout world 
history, all the major powers in the world fell through their 
food policy, beginning in Genesis, where Pharaoh's food policy 
made farmers slaves, and Joseph came along and developed a 
marketing program to save the farmers. Rome fell because of its 
food policy. Europe, specifically, I know a lot about Germany 
and how entire villages were starved to death because of the 
concentration of food. This is my warning to us in the United 
States because of our concentration of food that we may and 
could easily fall.
    Senator Dayton. Thank you.
    Thank you, Mary Ellen.

      STATEMENT OF DAVID KOLSRUF, BEAVER CREEK, MINNESOTA

    Mr. Kolsruf. Chairman Dayton and Senator Wellstone, I am 
glad to be here today. I am David Kolsruf, a farmer from 
southwest Minnesota and a manager of one of the new generation 
coops which is majority owner of an ethanol plant. Thank you 
for the opportunity to be here today.
    Senator Dayton. You testified in Washington.
    Mr. Kolsruf. I saw you two days ago in Washington.
    Senator Dayton. Right.
    Mr. Kolsruf. I am testifying here today, too, because, a 
lot of things are going on in rural America, and we are in a 
transition period. Being involved in new generation coops, I 
see the real value of farmers working together to build 
processing plants, and these plants are getting bigger all the 
time, like the soybean plant here in Brewster.
    I would like to see some of the funds targeted toward 
equity financing, so they can help invest in these plants. They 
have a huge economic impact in the area. They help farmers 
sustain their livelihood, and it is just a win-win situation 
for both the farmer and the government.
    One of the other things that I have found in my journeys 
around is that in the ethanol industry, we have what we call a 
small producer ethanol tax credit to help out the small 
producer. While you guys are debating billions and billions of 
dollars for the big oil companies, here is a program that was 
specifically designed to help ethanol producers back in the 
eighties, and we have yet to utilize them. It was designed for 
everybody but. It was not designed for everybody; it was 
designed for the farmers, but the farmers have not been able to 
utilize them yet.
    One of the things I caution you against was we go down in 
Cerina, where we are taking surplus commodities, wind energy 
and all of these things, and we are using them to fulfill our 
energy crisis, which, by the way, could be an energy 
opportunity for us in the Midwest. Make sure that when you look 
at these tax breaks for big oil and that that the farmers are 
not left out. Like in wind energy, it would be a tremendous, 
tremendous impact if we were able to utilize these tax credits 
so farmers could own the wind turbines; we could own our 
biodiesel, ethanol plants and have the same credits that are 
available to the other big oil companies.
    With that, I thank you. By the way, Senator Wellstone, I 
want to thank you for your work with the veterans on all the 
work you did. Being a veteran, I sincerely appreciate that.
    Senator Dayton. Thank you. Thank you very much.
    Welcome.

        STATEMENT OF RICHARD ZUPP, PRESIDENT, MINNESOTA 
          ASSOCIATION OF SOIL AND WATER CONSERVATION 
                DISTRICTS, PIPESTONE, MINNESOTA

    Mr. Zupp. Welcome.
    I am Richard Zupp, farmer from Pipestone, Minnesota. I am 
also chairman of the soil and water conservation districts in 
Minnesota, and I am also sitting on the national board of the 
NACD, National Association of Conservation Districts.
    Several things I want to discuss today is the EQIP program 
and its funding of it. It seems that the technical assistance 
on that is falling very short. Our local office goes out and 
does the work, gets the projects lined up. It takes up to 
possibly a year to get these things fully in gear; get the 
producer all lined up to do the work and everything else. Then, 
we find we have no money to carry out the practice. We are at a 
loss.
    We also are very much in favor of the conservation 
incentive program that is being promoted. We are definitely 
very much 100 percent in favor of that.
    The other thing that I guess I wanted to talk about, too, 
is our energy things; we are very much in favor of those, and 
we will be presenting written testimony at your Stuartville 
meeting over there, and I hope to see you there. Thank you so 
much.
    Senator Dayton. Thank you, Richard. Thank you. Well said.

    STATEMENT OF PAUL SOBOCINSKI, LAND STEWARDSHIP PROJECT, 
                       WABASSO, MINNESOTA

    Mr. Sobocinski. Paul Sobocinski, Land Stewardship Project, 
Minnesota. I am also a livestock farmer besides working for the 
Land Stewardship Project.
    I first of all want to say very clearly, Senator Dayton, 
Senator Wellstone, as you are deliberating in terms of farm 
policy, do not buy any of the commodity groups' or farm 
organizations' analysis to reduce loan rates for any of our 
crops. I urge you to look at the situation the same way that 
you look at workers. If workers deserve a minimum wage, so do 
farmers deserve a fair and minimum loan rate for the crops they 
produce.
    I was quite disappointed yesterday when I saw $2 billion 
cut on the Senate side in terms of emergency funding, because 
that directly affects farmers all across the state, and it is 
very real, just the same as workers who would see that type of 
reduction.
    In the upcoming Farm bill debate, I believe that you need 
to draw a line on the sand particularly around three issues: 
first of all, around the issues in terms of we need to have a 
moratorium on these large agribusiness mergers.
    That moratorium needs to include coops like Farmland, 
Land'o'Lakes.
    In the late 1950's and early 1960's, my grandfather worked 
to help organize REAs. He said back then Land'o'Lakes was going 
in the wrong direction. He would turn over in his grave to know 
that coops today are now competing; farm coops are competing 
with farmers and producing livestock. This needs to be stopped.
    The next area that needs to be done in terms of the Farm 
bill, it needs to have a strong conservation component. The 
Conservation Security Act that Senator Harkin is behind needs 
everyone's support. It needs to go forward. All farmers, 
regardless of the crops they produce, should not be 
discriminated against.
    Thank you.
    Senator Dayton. Thank you, Paul. Thank you.
    Welcome.

          STATEMENT OF RANDY OLSON, SUNBURG, MINNESOTA

    Mr. Olson. Honorable Senators Dayton and Wellstone; other 
respected officials, my name is Randy Olson. I am a 23-year-old 
ex-dairy farmer from Sunburg, Minnesota. I am here to address 
the U.S. Government and the speculators who market and transfer 
our farm products around the world.
    I have five Bible verses I want to read: James 5: Come now 
you rich. Weep and howl. Fear miseries that are coming upon 
you. Your riches are corrupted, and your garments are moth-
eaten. Your gold and silver are corroded, and their corrosion 
will be a witness against you, and you will eat your flesh like 
fire. You have heaped up treasure in the last days. Indeed, the 
wages of the laborers who mowed your fields, which you kept 
back by fraud, cry out, and the cries of the reapers have 
reached the ears of the Lord of the Sabbath. You have lived on 
the earth in pleasure and luxury. You have fattened your hearts 
as in a day of slaughter. You have condemned, you have murdered 
the just. He does not resist you.
    I want to farm. I also want to raise a family. Working the 
soil, working with animals, raising children are all heavenly, 
magical experiences. The problem is that it all takes money. 
Now, if you as a government pass any farm legislation that will 
not put more money in the pockets of independent farm producers 
such as my father and mother, in my eyes, you are committing a 
sin. I am here asking you to help me, because alone, I cannot 
fight our coops and food processors.
    Thank you.
    Senator Dayton. Thank you, Randy. Thank you.
    Welcome.

         STATEMENT OF KELVIN ELNESS, WINDOM, MINNESOTA

    Mr. Elness. Good afternoon. My name is Kelvin Elness. I am 
from Windom, Minnesota. I grew up on a dairy farm and wanted to 
continue farming. As I got older, my mother and I farmed 
together. When I graduated high school, she told me to go on to 
college, to get out.
    I went on to college; I graduated; I taught for a couple 
years. Now, I am back here in Minnesota, where I want to be. I 
am starting to take over the farm, but it is very, very 
difficult starting out. Most of our ground is now old CRP 
ground which I am using for pastures and grazing. I guess I 
would just like to see more opportunity for young farmers to 
get started without the large quantities of money needed to buy 
the land to continue on or take over their family farms.
    Also, I would like to address--I started raising buffalo, 
and some of the disease issues in buffalo, and my neighbor has 
elk, in the exports to other countries: we need to make sure 
that there are some standards set so that these countries can 
be assured that we are producing quality products.
    I would like to thank you for your time and give you these 
letters.
    Senator Dayton. Thank you.
    Thank you very much. Thank you.
    You are our last witness, sir. Thank you for your patience.

           STATEMENT OF BRUCE BEDERMAN, GRAFTON, IOWA

    Mr. Bederman. You bet. My name is Bruce Bederman. I am from 
Grafton, Iowa and a farmer and an agribusinessman. I sell grain 
bins and grain dryers, and that business has been very slow 
because of the economy. I basically agree with the National 
Farmers Organization's cut on the Farm bill. I have a copy of 
my proposal. One point I was waiting to see was covered in it 
was not quite adequately. The farming communities or livestock 
raisers should have to be raising at least 75 percent of their 
own feed. If they do this, they have a place for the manure. 
Concentration is relatively bad no matter where it is, if it is 
people or animals or whatever. If you have a sustainable 
agriculture where you actually raise your own feed, and if you 
raise feed for crops, you are a farmer; if you do not actually 
farm or raise crops, you are not a real farmer; you are just a 
manufacturer of animal products or whatever.
    The other basic principle I have on my deal is if you raise 
more than 50 percent of your land on one crop, you cannot 
rotate, and therefore, you will degrade the land. Thank you for 
your time.
    Senator Dayton. Thank you very much. Thank you.
    Three more gentlemen waiting to speak, and we will draw the 
line there.

   STATEMENT OF JOHN P. KIBBIE, IOWA SENATE, EMMETSBURG, IOWA

    Mr. Kibbie. Thank you, Senators, for having this hearing. 
My name is State Senator Jack Kibbie from Iowa, and Senator 
Paul and I have talked about these issues in the past.
    The conference that was held in Lincoln, Nebraska, recently 
with 11 neighboring states; 52 legislators attend ag committee 
that I co-chaired with a legislator from Michigan, but we 
passed eight resolutions and then took them to the full body, 
which is 500 people, and either passed them unanimous or with a 
good majority vote, and they dealt with everything from 
concentration to the Justice Department, Packer and Stockyards 
and a whole raft of things with biotechnology. I will see to it 
that you get copies of those.
    A couple other issues that I see in this whole trade 
affair: we have 130 countries that we have American troops in 
them, 130 of them. The gentleman that talked about the 
veterans; those people are going to be veterans. Many of those 
countries, we are trading with that do not have any human 
rights laws; do not have any labor laws; do not have any 
environmental laws, and they either ought to have some kind of 
a standard, or we ought to not trade with them.
    The other thing that I feel, before all this thing is going 
to change, we have to get some control over campaign finance. 
The corporate America----
    Corporate America is buying and selling our government. You 
people are there; I am there on the state level. Read the 
reports. Read the reports. Make them public on where all this 
money is coming from for these campaigns. It is hurting us in 
being able to pass a decent farm bill.
    Thank you.
    Senator Dayton. Thank you, Jack. Thank you for being here.

          STATEMENT OF RICK GOEDTKE, FULDA, MINNESOTA

    Mr. Goedtke. I am Rick Goedtke from Fulda, Minnesota. I 
raise corn, soybeans, and I am also a turkey producer.
    What I would just kind of like to do is run over a few 
things that I kind of agree with. I agree the loan rate should 
be raised. I do not think there should be a deficiency payment 
paid when you sign up for the farm program. You should only 
have a higher loan rate that justifies cost of production and a 
cost of living, something to pay for your labor.
    There should be a marketing LDP with that loan. That is a 
good idea. As a livestock producer, that fits the mold really 
well.
    That the payment should be based on bushels. You should pay 
on bushels. You should limit the amount of bushels. The payment 
limitations that you have in the farm program right now are a 
joke. They are an absolute joke. They do not make any sense. 
They are unenforceable. They always have been. I remember 
sitting in an FSA office, and a guy came in, and he farmed a 
rather large amount of ground and said gee, what am I going to 
do about this? I am going to be way over this, and I am not 
going to be able to cash in on this deal.
    The director just said come back with me. I will show you 
how to get around that. That is the way it works.
    If you do it by bushels, you limit the amount of bushels, 
it is a much easier, simpler way of dealing with it. The farm 
program should be simple. Simple things are hard to abuse, OK? 
I also think that you should do your payment in line with the 
CER values of land; should be bushels times the CER value, the 
crop equivalency rating. That is fair. Some of these are not 
fair right now.
    More long-term conservation programs with dollar limits; 5 
or 10 years; I like the gentleman's idea with grazing some of 
these acres. It is good.
    It is better to be out of production. It is also better to 
be using it as well.
    Incentives for less tillage, maybe to be applied to loan 
rates as an incentive for conservation. I would also like to 
talk to you about the wetland rule specifically; the 
abandonment rule. There is a 5-year abandonment rule on 
wetlands. Even if you have drainage in there, you are not 
allowed to go in there and fix that if you have not used that 
for 5 years. That is a way of stealing a farmer's ground. That 
is not right.
    I also would just like to briefly, since I am a turkey 
producer, we are not--we do not do any of the other stuff 
like--our checkoff is a voluntary program and stuff. I do 
volunteer to that. It is a pretty good program, and I am very 
small in that industry. I want you to realize that in that 
industry, which is mostly a corporate-controlled industry, this 
farm bill that you are going to have probably that I see right 
here that you handed to me and the past farm bill that you have 
been having have been a real windfall for those people.
    I love buying corn at $1.42 or $1.50 to feed to my turkeys. 
That works great. You know what? My grain and soybean 
operation? It is running in the negative. It does not make 
sense. It should not work that way. You need to change that so 
the people that are out there on the farm that are raising the 
stuff take advantage of it, not the others, not the corporate 
entities.
    Senator Dayton. Thank you. Thank you very much. Thank you. 
Well-said; very well-said.
    You get the last word, sir.

        STATEMENT OF REV. BOB MORITZ, HADLEY, MINNESOTA

    Rev. Moritz. OK; I have known Senator Dayton and Senator 
Wellstone for over 20 years; a good friend of Anne Kanten and 
other people who have spoken here today, and you need a 
benediction. I happen to be a clergyman who is here to get 
educated, and also, I have served in the parish where I serve 
at Hadley and Chandler for almost 30 years, 29-plus, and I have 
stayed there because I wanted to fight for the farmers, and I 
am past retirement, and the fight is slowly leaving me. Those 
who have said they are angry can count another person here. 
When I have seen what has happened to our beautiful farm land 
and when I have seen what has happened to our churches, the 
numbers have gone down, and they continue to go down, and it is 
very, very distressing.
    Tomorrow, I will share with my parish using a text about 
the farmer who wants to tear down and build bigger granaries, 
and Jesus is not a happy camper when he hears what they are 
saying, and the whole thing has to do with greed. That is what 
the text is about, and that is what life itself is about. There 
is so much greed out there, and all of us, all of us, are 
guilty. It is not that person or this person or whatever. We 
need to deal with those kinds of things.
    When I see what has happened to the farmers, I can only 
weep and weep with them. I do think that it is important for 
the government to continue to try to help the family farmer. I 
mean, I in a sense implore you, plead with you, and I know that 
you have been working in that way. I ask that you continue to 
do that, and certainly, as we leave here today, we know there 
are people that are going to be working for us, but we need 
more like you two, and we want you to represent us as you have, 
and we simply say may God bless both of you. Thank you.
    Senator Dayton. Thank you very much. Thank you.
    This has been just a terrific hearing and very, very 
informative for me. I want to thank the members of our panel 
again for your participation, for your being here. I want to 
thank all of our audience for your patience and your eloquence, 
and there is no question that we need a farm bill which shifts 
direction fundamentally and puts price and profit back into 
agriculture in the marketplace. Getting there is going to be 
the subject of debate, but from everything I have heard today, 
that has got to be the key underpinning. I pledge to you we 
are--both Paul and I now, being members of the Senate 
Agriculture Committee; we have three members of our Minnesota 
House delegation: Representative Kennedy, Gutknecht and 
Peterson are on the House Agriculture Committee, so I am very 
hopeful that we can make sure that this bill represents the 
best interests of Minnesota, and I pledge to you that I am 
committed, working with Senator Wellstone and others, to that 
end.
    Again, on my behalf, thank you very, very much, and I will 
turn it over to Senator Wellstone for any concluding remarks.
    Senator Wellstone. Thank you, Senator Dayton.
    I want to also thank the panel. I want to thank Ted Winner 
and Jim Vickerman for getting us going here today and all the 
work you do. There are a lot of people, a lot of legislators 
here today from our state and Iowa and South Dakota and also a 
lot of farm activists and people that I have known, that I have 
come to know and to love.
    The way I will finish up is by just saying two things. One 
is a little bit more by way of some people who are here who 
work with me. I have to mention Connie Lewis, because she is 
from Jasper. She is the head of our Minnesota office. She is an 
incredibly skillful person, and this conversation has great 
personal meaning to her. It is what her parents are about and 
what she is about. Connie Lewis, right there, please stand up.
    I also want to thank Tom Meium, who is out of our Wilmer 
office, who is just great to work with.
    [Applause.]
    Senator Wellstone. Brian Baining, who came out here from 
Washington, DC, who is working with Brian Allberg. Brian is 
right behind us.
    Brian, please stand up.
    Then I have to also thank Sheila, because we do all this 
work together, and she is way in the back of the room. Sheila, 
will you please stand up?
    Sheila is my wife. Sheila Wellstone!
    I cannot help it.
    The other thing I want to say to everybody here is I have 
been listening, too, and people have different views. The 
panelists have presented some different viewpoints, and I thank 
everybody here for being here. For my own part, when there was 
a vacancy, I really jumped on this committee, because I thought 
God, Anne, a lot of us have known each other for many years. We 
have been through these struggles. I will repeat what I have 
said before: I just do not think time is neutral. I do not 
think we have very many more chances to get it right with a 
farm bill. I thought if I could get a chance to be there on the 
committee and dig in in every way I know how, I am going to do 
it now, because this is the time.
    Senator Harkin as chair of the committee gives us a much 
better chance than we have had for awhile from at least what I 
believe in most, which is very focused on family farm, very 
focused on price, very focused on competition that gives our 
producers a decent chance, very focused on conservation and 
stewardship, very focused on value-added products, very focused 
on the potential for--boy, wind energy, biomass to electricity, 
small business, clean technology, boy, rural America we have 
part of the answer. Biodiesel; we have a big answer for our 
country, and I said to Al Christopherson: we all agree on that. 
There is a real potential of agreement.
    That is the good news. The only bad news is--I thought Mark 
was putting a 2-minute sign up here. He is getting worried. I 
have to go on and on.
    [Laughter.]
    Senator Wellstone. The only bad news is that--it is not bad 
news, but I just was thinking there has got to be a way that--
the House has got a bill out of committee. We are working on it 
now. There has got to be a way, and I have to think about this, 
and I would ask you--that over the next three, four, 5 months 
that we figure out ways of really kind of cranking it up, 
really putting the focus on that Ag Committee, starting to make 
this much more public, starting to get people in the country 
engaged in this.
    You know, this is a big value question. That is really what 
it is about. This is a spiritual question. I mean, if you want 
an agriculture that increasingly is dominated by conglomerates, 
someone will always own the land. Someone will own the animals. 
The question is that is a different kind of agriculture. Or do 
you want a family farm structure of agriculture? Do you want an 
agriculture that is respectful of the land and the environment, 
that is respectful of communities, where the people who work 
the land, they live on the land; they make the investment 
decisions; they care about the community; they support the 
churches and the synagogues; they support the schools; they buy 
in the community; they support local businesses.
    I mean, that is really, kind of what we believe in the 
most. If these are our values, and these are our families, and 
these are our children, or these are our grandchildren, then, I 
do not think there has ever been a more important time for all 
of us to give this every single thing we have. The only promise 
that Mark and I can make for sure is that we are going to give 
it everything we know how to do. We will fight this out every 
way we know how, and we will do it with you.
    Thank you.
    Senator Dayton. Thank you all very much. The hearing is 
adjourned.
    [Whereupon, at 4:17 p.m., the hearing was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             August 4, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 85323.001

[GRAPHIC] [TIFF OMITTED] 85323.002

[GRAPHIC] [TIFF OMITTED] 85323.003

[GRAPHIC] [TIFF OMITTED] 85323.004

[GRAPHIC] [TIFF OMITTED] 85323.005

[GRAPHIC] [TIFF OMITTED] 85323.006

[GRAPHIC] [TIFF OMITTED] 85323.007

[GRAPHIC] [TIFF OMITTED] 85323.008

[GRAPHIC] [TIFF OMITTED] 85323.009

[GRAPHIC] [TIFF OMITTED] 85323.010

[GRAPHIC] [TIFF OMITTED] 85323.011

[GRAPHIC] [TIFF OMITTED] 85323.012

[GRAPHIC] [TIFF OMITTED] 85323.013

[GRAPHIC] [TIFF OMITTED] 85323.014

[GRAPHIC] [TIFF OMITTED] 85323.015

[GRAPHIC] [TIFF OMITTED] 85323.016

[GRAPHIC] [TIFF OMITTED] 85323.017

[GRAPHIC] [TIFF OMITTED] 85323.018

[GRAPHIC] [TIFF OMITTED] 85323.019

[GRAPHIC] [TIFF OMITTED] 85323.020

[GRAPHIC] [TIFF OMITTED] 85323.021

[GRAPHIC] [TIFF OMITTED] 85323.022

[GRAPHIC] [TIFF OMITTED] 85323.023

[GRAPHIC] [TIFF OMITTED] 85323.024

[GRAPHIC] [TIFF OMITTED] 85323.025

[GRAPHIC] [TIFF OMITTED] 85323.026

[GRAPHIC] [TIFF OMITTED] 85323.027

[GRAPHIC] [TIFF OMITTED] 85323.028

[GRAPHIC] [TIFF OMITTED] 85323.029

[GRAPHIC] [TIFF OMITTED] 85323.030

[GRAPHIC] [TIFF OMITTED] 85323.031

[GRAPHIC] [TIFF OMITTED] 85323.032

[GRAPHIC] [TIFF OMITTED] 85323.033

                                   - 

</pre></body></html>
